U.S. Department of Labor                  Office of Inspector General
                                          Washington, DC. 20210




September 29, 2014


MEMORANDUM FOR:            T. MICHAEL KERR
                           Assistant Secretary
                            for Administration and Management




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   DOL Compliance with Federal Environmental
                           and Energy Performance Requirements,
                           Report No. 17-14-002-07-001

We performed a review of the Department of Labor’s (DOL) compliance with
federal environmental and energy performance requirements to assess whether
DOL is meeting these requirements. This review was initiated by the
Congressional Bicameral Task Force on Climate Change, which requested the
following:

   1. Identify existing requirements in legislation, regulation, executive
      order (EO), and other directives that apply to DOL;

   2. Assess whether DOL is meeting these requirements, and make
      recommendations for improving its performance if not meeting
      requirements;

   3. Assess DOL’s authority to reduce emissions of heat-trapping
      pollution;

   4. Assess DOL’s authority to make the nation more resilient to the
      effects of climate change; and

   5. Assess the most effective additional steps DOL could take to
      reduce emissions or strengthen resiliency.

DOL is responsible for reporting energy and sustainability performance for the
Department of Labor, including Job Corps Centers (which comprise
2,400 buildings located throughout the country), the Frances Perkins Building in



                 Working for America’s Workforce
                                        -2-


Washington, DC, and more than 4,000 leased vehicles. The Department’s
environmental policy is reviewed and reissued annually by the Secretary of Labor
in the DOL Strategic Sustainability Performance Plan (SSPP). The Department
updates the SSPP annually to show the top priority initiatives and actions
selected for improving sustainability during the succeeding fiscal year.

Within the Office of the Assistant Secretary for Administration and Management
(OASAM), the Deputy Assistant Secretary for Policy has been designated as the
Senior Sustainability Officer (SSO). The SSO is accountable for agency
conformance to environmental and energy requirements. OASAM’s Business
Operations Center – Office of Administrative Services is responsible for tracking
and reporting the Department’s compliance with energy and sustainability goals
and reporting to the SSO. To ensure that sustainable practices are adopted,
OASAM monitors and measures Departmental and agency performance and
conformance against the goals set in the SSPP and initiates corrective action as
appropriate.

We conducted our review between April 2013 and March 2014 under the Quality
Standards for Inspection and Evaluation issued January 2012 by the Council of
the Inspectors General on Integrity and Efficiency.

RESULTS

Based on the information provided by the Department, the Department indicates
that it is meeting 91 percent of existing federal environmental and energy
requirements. The Department indicates that it is meeting all the requirements
related to water efficiency and electronic stewardship, and is meeting at least 80
percent of existing requirements related to greenhouse gas (GHG) emissions,
pollution and waste reduction, sustainable buildings, procurement and contracts,
and reporting. However, the Department can improve its compliance related to
regional and local planning of which it is only meeting 60 percent of existing
requirements (see Figure 1 - Percentage of Environmental and Energy
Requirements Met).
                                          -3-



                    Figure 1: Percentage of Federal
               Environmental and Energy Requirements
                                  Met
  100
   80
   60              90                           95
          91               100       83                                 90      93
                                                     100       60
   40
   20
    0




(See Attachment 1, Summary of DOL Compliance with Key Federal Environmental and Energy
Legislation, Regulations, and Guidance Directives Identified by DOL Officials)

The Department has made very little progress in meeting one of the two
sustainable building metrics because more than 99 percent of its buildings are on
125 Job Corps campuses across the nation comprising aged, unsustainable
building stock. We recommended that the Department determine if any unused
maintenance funds could be used to improve the situation. Furthermore, we were
not able to assess DOL’s progress in meeting both metrics related to pollution
and waste reduction because the Department stated that guidance has not yet
been issued for these requirements which DOL must meet by the end of
FY 2015. Our responses to the Congressional request follow:

1. Identify existing requirements in legislation, regulation, executive order,
   and other directives that apply to DOL.

DOL must comply with applicable goals and requirements found in criteria such
as EOs, memoranda, laws, and regulations. At the time we began our review
(April 2013), we identified 15 different laws, regulations, and orders that
contained requirements for federal agencies related to environmental and energy
performance. Some requirements include measurable goals or “metrics,” and
other requirements do not contain measurable goals. Based on information
provided by OASAM, the Department is following five key directives to provide
the primary metrics and requirements for it to manage climate change. These five
key directives accounted for every metric, as well as 63 percent of the other
requirements, in the 15 different laws, regulations, and orders we reviewed (See
                                                -4-


Attachment 1, List of Federal Environmental and Energy Legislation,
Regulations, and Guidance). Therefore, we focused our review to the following
five key directives in order to respond to the Congressional request:

    •   National Energy Conservation Policy Act of 1978 (Fully Amended)
        (NECPA) 1 — Promotes the conservation and efficient use of energy
        and water, and the use of renewable energy sources, by the federal
        government.

    •   Energy Policy Act of 2005 (EPACT) — Enacted to ensure jobs for
        our future with secure, affordable, and reliable energy. It
        establishes energy efficiency requirements for federal programs.

    •   EO 13423, Strengthening Federal Environmental, Energy, and
        Transportation Management (January 24, 2007) — Requires that
        agencies conduct environmental, transportation, and energy-related
        activities in an environmentally, economically and fiscally sound,
        integrated, continuously improving, efficient, and sustainable
        manner.

    •   Energy Independence and Security Act of 2007 (EISA) — Enacted
        to move the Nation toward greater energy independence and
        security, and to improve the energy performance of the federal
        government.

    •   EO 13514, Federal Leadership in Environmental, Energy, and
        Economic Performance (October 5, 2009) — Establishes an
        integrated strategy towards sustainability and prioritizes the
        reduction of GHG emissions in the federal government.

2. Assess whether DOL is meeting these requirements, and make
   recommendations for improving its performance if not meeting
   requirements.

To assess whether the Department was meeting federal environmental and
energy performance requirements in the five key directives we selected for
review, we interviewed the Department’s SSO on DOL compliance, reviewed
documentation provided in support of the Department’s sustainability efforts, and
assessed its reasonableness in meeting a particular metric or requirement;
however, we did not validate the supporting documentation.

In addition, we used EO 13514 to organize our assessment of whether DOL is
meeting the requirements of the five key directives. EO 13514 is the driver for
agencies’ annual SSPPs and is generally organized along the following areas:
1
 This includes subsequent amendments made through other legislation such as the Energy Independence
and Security Act of 2007.
                                          -5-


(A) GHG Emissions, (B) Water Efficiency, (C) Pollution and Waste Reduction,
(D) Sustainable Buildings, (E) Electronic Stewardship, (F) Regional and Local
Planning, (G) Procurement and Contracts, and (H) Reporting. A detailed
discussion of our review for each of these eight sustainability areas follows:

A.     GHG Emissions

Federal sustainability efforts related to GHG emissions include reducing
petroleum consumption; increasing alternative fuel usage; acquiring low-GHG,
alternative fuel vehicles; and consuming renewable energy.

Based on documentation provided by OASAM, DOL is actively addressing all
ten, and meeting nine (90 percent), of ten applicable requirements (five metrics
and five other requirements).

GHG Emissions Metrics

Based on documentation provided by OASAM, DOL is actively addressing and
meeting all five applicable metrics (see Figure 2 – GHG Emissions Metrics).


                         Figure 2: GHG Emissions Metrics
  5


  4


  3
                  5                             5                          5

  2


  1


  0
                 Total                    Addressing                    Meeting

(See Attachment 3, Department Compliance with Environmental Laws and Regulations for GHG
Emission)

Scope 1 and 2 GHG Emissions Reduction Target

In its 2013 SSPP, DOL reported that it reduced Scope 1 and 2 GHG emissions
by 25.5 percent. EO 13514 requires agencies to establish and report a
                                       -6-


percentage reduction target for agency-wide reductions of Scope 1 and 2 GHG
emissions by FY 2020, relative to a FY 2008 baseline. Scope 1 GHG emissions
are from sources owned or controlled by the federal government. Scope 2 GHG
emissions result from the generation of electricity, heat, or steam purchased by a
federal agency. DOL established a Scope 1 and 2 GHG emission reduction
target of 27.7 percent which it is on track to achieve by 2020 (see Attachment 3 –
Metric 4).

To address this goal, DOL is reducing facility energy intensity, installing and
using renewable energy, reducing fleet petroleum use, increasing alternative fuel
vehicle use, optimizing vehicle use, right-sizing its fleet, and increasing low
emission and high fuel economy vehicle use.

In recognition of its efforts, the Department earned a “Green” score from the
Office of Management and Budget (OMB) on its January 2013 Scorecard for
“Scope 1&2 GHG Emissions Reduction Target.”

Scope 3 GHG Emissions Reduction Target

In its 2013 SSPP, DOL reported that it reduced Scope 3 GHG emissions by
31.9 percent. EO 13514 requires agencies to establish and report a percentage
reduction target for agency-wide reductions of Scope 3 GHG emissions by
FY 2020, relative to a FY 2008 baseline. Scope 3 GHG emissions are from
sources not owned or controlled by a federal agency but relate to agency
activities such as vendor supply chains, delivery services, and employee travel
and commuting. DOL established a Scope 3 GHG emission reduction target of
23.4 percent which it has already surpassed (see Attachment 3 – Metric 5).

In recognition of its efforts, the Department earned a “Green” score from OMB on
its January 2013 Scorecard for “Scope 3 GHG Emissions Reduction Target.”

Reduction in Fleet Petroleum Use

In its 2013 SSPP, DOL reported that it reduced fleet petroleum use by
15.4 percent. EO 13423 requires agencies to reduce total consumption of
petroleum products by 2 percent annually through the end of FY 2015, relative to
a 2005 baseline. Additionally, EISA requires agencies to achieve at least a
20 percent reduction in annual petroleum consumption by October 1, 2015. DOL
exceeded the target goal of 14 percent for 2012, and is on track to reach a
20 percent reduction by 2015 (see Attachment 3 – Metrics 1 and 2).

DOL also reported that it increased its fleet alternative fuel consumption by
202.4 percent. EO 13423 requires agencies to increase total fuel consumption
that is non-petroleum based by 10 percent annually, relative to a 2005 baseline.
EISA requires a 10 percent increase in annual alternative fuel consumption by
                                                  -7-


October 1, 2015. DOL has already exceeded the target goal of 159.4 percent 2 for
2015 (see Attachment 3 – Metrics 1 and 3).

To meet these goals, the Department has increased alternative fuel use to
comprise 5.5 percent of total fuel use for its fleet of 4,282 vehicles. According to
the Department’s 2013 SSPP, this has been challenging because there is a lack
of local infrastructure for alternative fuel vehicles. DOL agencies analyze fleet
optimization strategies and options carefully to ensure vehicle reduction, model
downsizing, and conversions from conventional to alternative fuels do not
compromise agencies’ missions.

In recognition of its efforts, the Department earned a “Green” score from OMB on
its January 2013 Scorecard for “Reduction in Fleet Petroleum Use.”

Other GHG Emissions Requirements

We identified five other requirements related to GHG emissions in the five key
directives included in our review. Based on documentation provided by OASAM,
DOL is actively addressing all five requirements but is meeting only four
(80 percent) of them (see Figure 3 – Other GHG Emissions Requirements).


                Figure 3: Other GHG Emissions Requirements
     5


     4


     3
                        5                               5                   4
     2


     1


     0
                      Total                       Addressing            Meeting

(See Attachment 3, Department Compliance with Environmental Laws and Regulations for GHG
Emission)




2
    10 percent compounded annually for 10 years
                                           -8-


B.     Water Efficiency

Federal sustainability efforts related to water efficiency include reducing water
consumption and increasing water reuse strategies.

Based on documentation provided by OASAM, DOL is actively addressing and
meeting all four applicable requirements (two metrics and two other
requirements).

Water Efficiency Metrics

Based on documentation provided by OASAM, DOL is actively addressing and
meeting all 2 applicable metrics (see Figure 4 – Water Efficiency Metrics).



                   Figure 4: Water Efficiency Metrics
  2




  1               2                          2                          2




  0
                Total                    Addressing                   Meeting

(See Attachment 4, Department Compliance with Environmental Laws and Regulations for Water
Efficiency)

Reduction in Potable Water Intensity

In its 2013 SSPP, DOL reported only a 6.6 percent reduction in potable water
intensity for FY 2012. However, in FY 2013 DOL achieved a reduction of
21 percent, putting it back on track to meet requirements. EO 13514 requires that
agencies reduce potable water consumption intensity 2 percent annually through
FY 2020, or 26 percent by the end of FY 2020, relative to a FY 2007 baseline
(see Attachment 4 – Metric 1).
                                       -9-


To address this goal, DOL replaced steam heating tubes in hot water converters,
and installed smaller, more efficient cooling towers in the Frances Perkins
Building; replaced water supply piping at one Job Corps center; and installed
low-flow showerheads at five Job Corps centers. Job Corps has also established
a plan to further reduce potable water intensity at each Job Corps center. In
addition, Job Corps uses a web-based utility tracking and monitoring system for
all of its centers which has had a positive impact on Job Corps’ conservation
initiatives.

Although the Department earned a “Red” score from OMB on its January 2013
Scorecard for “Reduction in Potable Water Intensity,” its efforts in FY 2013 have
put the Department back on track to meet this EO 13514 requirement by the end
of FY 2020.

Industrial, Landscaping and Agricultural Water Consumption

EO 13514 requires agencies to reduce agency industrial, landscaping, and
agricultural water consumption by 2 percent annually, or 20 percent by the end of
FY 2020, relative to a FY 2007 baseline. However, according to OASAM it is not
cost-effective for the Department to add separate metering for DOL landscaping
water and the small amounts of water used for industrial and agricultural
purposes. Therefore, DOL’s strategy has been to focus on overall water use
reduction. For FY 2013, DOL reported a 21 percent overall reduction (see
Attachment 4 – Metric 2).

Other Water Efficiency Requirements

We identified two other requirements related to water efficiency in the five key
directives included in our review. Based on documentation provided by OASAM,
DOL is actively addressing and meeting both requirements (see Figure 5 – Other
Water Efficiency Requirements).
                                           -10-



                      Figure 5: Other Water Efficiency
                               Requirements
  2




  1
                  2                          2                          2




  0
                Total                    Addressing                   Meeting

(See Attachment 4, Department Compliance with Environmental Laws and Regulations for Water
Efficiency)

C.     Pollution and Waste Reduction

Federal sustainability efforts related to pollution and waste include diverting
hazardous solid waste; diverting construction and demolition materials and
debris; maintaining waste prevention and recycling programs; and reducing use
of toxic and hazardous chemicals.

Based on documentation provided by OASAM, DOL is actively addressing all
12, and meeting 10 (83 percent), of 12 applicable requirements (2 metrics and
10 other requirements). We could not determine if the two metrics were met.

Pollution & Waste Reduction Metrics

Based on documentation provided by OASAM, DOL is actively addressing two
metrics; however, we could not determine if the two metrics were met (see
Figure 6 – Pollution and Waste Reduction Metrics).
                                           -11-



              Figure 6: Pollution and Waste Reduction
                               Metrics
  2




  1
                  2                          2



                                                                     Could Not
                                                                     Determine
  0
                Total                    Addressing                   Meeting

(See Attachment 5, Department Compliance with Environmental Laws and Regulations for
Pollution and Waste Reduction)

Waste Diversion

EO 13514 requires that agencies divert at least 50 percent of non-hazardous
solid waste and 50 percent of construction and demolition materials and debris
by the end of FY 2015. The Department did not report any data on its progress in
meeting these goals (see Attachment 5 – Metrics 1 and 2).

According to OASAM, the Council on Environmental Quality (CEQ) has yet to
issue guidance for this requirement. Guidance also has not been issued on
accounting for the diversion of construction and demolition materials and debris.
DOL tracks waste diversion for monitoring purposes in preparation for meeting
the FY 2015 waste diversion goal, and is also working to develop protocols for
tracking construction and demolition waste diversion at Job Corps centers.

To address the EO 13514 goals, DOL reviews all requests for construction,
alteration and repair at the Frances Perkins Building to ensure that the
statements of work require sorting and recycling of construction and demolition
materials.

Other Pollution and Waste Reduction Requirements

We identified ten other requirements related to pollution and waste reduction in
the five key directives included in our review. Based on documentation provided
by OASAM, DOL is actively addressing and meeting all of these ten
                                          -12-


requirements (see Figure 7 – Other Pollution and Waste Reduction
Requirements).


              Figure 7: Other Pollution and Waste
                   Reduction Requirements
  10
   9
   8
   7
   6
   5             10                        10                       10
   4
   3
   2
   1
   0
                Total                  Addressing                Meeting

(See Attachment 5, Department Compliance with Environmental Laws and Regulations for
Pollution and Waste Reduction)

Recommendation

We recommend the Assistant Secretary of Administration and Management:

1. Finalize protocols for tracking construction and demolition waste diversion at
   Job Corps centers.
                                           -13-



D.     Sustainable Buildings

Federal sustainability efforts related to sustainable buildings include ensuring
buildings meet the Guiding Principles; installing energy conservation measures;
performing energy surveys; and metering buildings for electricity, natural gas and
steam.

Based on documentation provided by OASAM, DOL is actively addressing
19 (100 percent), and meeting 18 (95 percent), of 19 applicable requirements
(2 metrics and 17 other requirements).

Sustainable Buildings Metrics

Based on documentation provided by OASAM, DOL is actively addressing two
applicable metrics and meeting one (see Figure 8 – Sustainable Buildings
Metrics).


               Figure 8: Sustainable Buildings Metrics
  2




  1               2                          2



                                                                         1



  0
                Total                    Addressing                   Meeting

(See Attachment 6, Department Compliance with Environmental Laws and Regulations for
Sustainable Buildings)

Green Buildings

In its 2013 SSPP, DOL reported that only 0.01 percent of its total building
inventory met the “Guiding Principles for Federal Leadership in High
Performance and Sustainable Buildings” (Guiding Principles). EO 13514 requires
that agencies ensure at least 15 percent of existing agency buildings (exceeding
                                                  -14-


5,000 gross square feet) and building leases (exceeding 5,000 square feet) meet
the Guiding Principles by FY 2015, and that the agency makes annual progress
towards 100 percent conformance with the Guiding Principles for its building
inventory. The situation has worsened since the previous year when DOL
reported that 1.4 percent of its building inventory met the Guiding Principles (see
Attachment 6 – Metric 1).

DOL reported that it has significant challenges in meeting this goal because
“more than 99 percent of the Department’s buildings are on 125 Job Corps
campuses across the nation comprising aged, unsustainable building stock and
its headquarters building was built in the unsustainable-friendly early 1970s.” To
address this goal, the Department is requiring that all new Job Corps
construction be designed to meet the Guiding Principles. Job Corps’ efforts
toward the 15 percent goal include its designs for five new Job Corps projects
and one existing Job Corps Center that are in compliance with the Guiding
Principles, and upgrading Centers based on cost and effort, targeting individual
buildings for listing with Energy Star 3, and replacing heating, ventilation, and air
conditioning systems. However, Job Corps has critical issues in meeting the EO
13514 goal by 2015 because of “overall funding issues and construction timing
related to annual milestones prior to 2015.”

Although the Department cites “funding issues” with respect to Job Corps, in
December 2012 we reported that Job Corps did not effectively manage
maintenance funds, resulting in $32.9 million in unused funds that had expired or
were approaching expiration. This included $9 million in funds that expired and
could not be used to incur new obligations, and $23.9 million for which Job Corps
could not provide the information needed to determine the expiration date(s).
This occurred because Job Corps did not place sufficient emphasis on tracking
and monitoring the status of obligated funds to ensure they were spent as
intended or appropriately reallocated to address other maintenance deficiencies.

The Department earned a “Red” score from OMB on its January 2013 Scorecard
for “Green Buildings.”

Reduction in Energy Intensity

In its 2013 SSPP, DOL reported that it had achieved a 28.1 percent reduction in
facility energy reduction. EO 13423 and NECPA require that agencies reduce
energy intensity by 3 percent annually and 30 percent by the end of
FY 2015, relative to a 2003 baseline. DOL exceeded the 21 percent target goal
for 2012 (see Attachment 6 – Metric 2).


3
 Energy Star is a voluntary program established at DOE and EPA to identify and promote energy–efficient
products and buildings in order to reduce energy consumption, improve energy security, and reduce
pollution through voluntary labeling of or other forms of communication about products and buildings that
meet the highest energy efficiency standards.
                                          -15-


DOL employs many methods to address and meet this goal. Job Corps’
“Sustainability Intensives” initiative includes changing the behaviors of building
occupants to be mindful of energy use. Job Corps also reviews and retro-
commissions individual Job Corps buildings to achieve energy efficiency and
reduce their GHG footprint.

The Department earned a “Green” score from OMB for “Reduction in Energy
Intensity.”

Other Sustainable Buildings Requirements

We identified 17 other requirements related to sustainable buildings in the five
key directives included in our review. Based on documentation provided by
OASAM, DOL is actively addressing and meeting all 17 requirements (see Figure
9 – Other Sustainable Buildings Requirements).


             Figure 9: Other Sustainable Buildings
                         Requirements
  17
  16
  15
  14
  13
  12
  11
  10
   9                                       17                       17
   8              17
   7
   6
   5
   4
   3
   2
   1
   0
                Total                  Addressing                Meeting

(See Attachment 6, Department Compliance with Environmental Laws and Regulations for
Sustainable Buildings)

Recommendation

We recommend the Assistant Secretary of Administration and Management:

2. Work with Job Corps to determine if any unused maintenance funds can be
   used to help meet the EO 13514 goal of 15 percent sustainable building stock
   by 2015.
                                           -16-



E.     Electronic Stewardship

Federal sustainability efforts related to electronic stewardship include
implementing policies to extend useful life of electronic equipment; using
environmentally sound practices when disposing of electronic equipment; and
enabling power management, duplex printing, and other environmentally
preferable features on electronic products.

Based on documentation provided by OASAM, DOL is actively addressing and
meeting all six applicable requirements (see Figure 10 – Other Electronic
Stewardship Requirements).


              Figure 10: Other Electronic Stewardship
                           Requirements
  6

  5

  4

  3

  2               6                          6                           6

  1

  0
                Total                    Addressing                   Meeting

(See Attachment 7, Department Compliance with Environmental Laws and Regulations for
Electronic Stewardship

To address these requirements, DOL is in the process of consolidating its
agencies’ data centers. The Department is also making an effort to improve the
life cycle environmental management of electronic assets, requiring the use of
certified R2 or eSteward electronic recyclers.

In its 2013 SSPP, DOL reported 100 percent of its monitors and computers were
power management enabled, and 100 percent of its electronics were disposed
through the General Services Administration (GSA) or other certified recyclers.
                                          -17-


F.     Regional and Local Planning

Federal sustainability efforts related to regional and local planning include
aligning policies to increase effectiveness of local planning for energy choices;
identifying and analyzing impacts from energy usage and alternative energy
sources in environmental impact statements and assessments for new or
expanded federal facilities; and coordinating with regional programs for
ecosystem watershed and environmental management.

Based on documentation provided by OASAM, DOL is actively addressing all five
and meeting three (60 percent), of five applicable requirements; however, we
could not determine if two requirements were met (see Figure 11 – Other
Regional and Local Planning Requirements).


               Figure 11: Other Regional and Local
                     Planning Requirements
  5


  4


  3
                 5
                                           5
  2
                                                                    3
  1


  0
               Total                  Addressing                 Meeting

(See Attachment 8, Department Compliance with Environmental Laws and Regulations for
Regional and Local Planning)

To address these requirements, DOL works closely with local and tribal
authorities for new construction projects in their communities, and participates in
local and regional environmental and sustainability efforts and initiatives as
applicable.

In addition, Job Corps is updating its policies to incorporate participation in
regional transportation planning; increase effectiveness of local energy planning;
ensure all required Environmental Impact Statements and Environmental
Assessments for new or expanded federal facilities identify and analyze impacts
associated with energy usage and alternative energy sources; and ensure
coordination and consultation with federal, state, tribal, and local management
                                               -18-


authorities regarding impacts to local ecosystems, watersheds, and
environmental management.

Although Job Corps is incorporating regional and local planning into its policies,
such policies should be established and implemented at the Departmental level
to meet federal requirements.

Recommendation

We recommend the Assistant Secretary of Administration and Management:

3. Establish and implement departmental policies and procedures for regional
   and local planning requirements.


G.      Procurement and Contracts

Federal sustainability efforts related to procurement and contracts include
ensuring new contract actions for products and services are energy efficient,
water efficient, bio-based, environmentally preferable, non-ozone depleting,
contain recycled content, or are non-toxic or less toxic alternatives.

Based on documentation provided by OASAM, DOL is actively addressing and
meeting nine (90 percent) of ten applicable requirements (two metrics and eight
other requirements). 4

Procurement & Contracts Metrics

Based on documentation provided by OASAM, DOL is actively addressing and
meeting all two applicable metrics (see Figure 12 – Procurement and Contracts
Metrics).




4
 Based on the documentation provided by OASAM, we could not determine if one requirement was
addressed or met.
                                           -19-




               Figure 12: Procurement and Contracts
                              Metrics
  2




  1
                  2                          2                           2




  0
                Total                    Addressing                   Meeting

(See Attachment 9, Department Compliance with Environmental Laws and Regulations for
Procurement and Contracts)

Electronic Product Acquisition

In its 2013 SSPP, DOL reported 95 percent or more of the monitors, personal
computers (PC), and laptops purchased in FY 2012 were EPEAT compliant. EO
13423 requires that agencies meet at least 95 percent of their requirements for
electronic product acquisitions with EPEAT-registered electronic products (see
Attachment 9 – Metric 1).

Sustainable Acquisition

In its 2013 SSPP, DOL reported 100 percent of applicable contracts contained
sustainable acquisition requirements. EO 13514 requires agencies to ensure that
95 percent of new contract actions are “energy efficient, water-efficient,
bio-based, environmentally preferable, non-ozone depleting, contain recycled
content, or are non-toxic or less toxic alternatives, where these products meet
agency performance requirements” (see Attachment 9 – Metric 2).

To address this goal, DOL has issued guidance to its contracting officers on the
requirements to acquire products and services complying with environmental and
sustainability standards. In DOL’s procurement system, federally-mandated
designated sustainable products are built in as the default in all relevant
procurements and services. DOL also revised its purchase card handbook to
include sustainable acquisition requirements.
                                           -20-



In addition, DOL agencies perform quarterly reviews of at least five percent of
applicable new contract actions to determine if sustainable acquisition
requirements are included.

Other Procurement and Contracts Requirements

We identified eight other requirements related to procurement and contracts in
the five key directives included in our review. Based on documentation provided
by OASAM, DOL is actively addressing and meeting seven (88 percent) of these
eight requirements (see Figure 13 – Other Procurement and Contracts
Requirements).


                Figure 13: Other Procurement and
                     Contracts Requirements
  8
  7
  6
  5
  4              8
                                           7                         7
  3
  2
  1
  0
                Total                  Addressing                 Meeting

 (See Attachment 9, Department Compliance with Environmental Laws and Regulations for
Procurement and Contracts)

H.     Reporting

Federal sustainability efforts related to reporting include implementing
environmental management systems at all appropriate organizational levels;
designating a senior management official to serve as SSO accountable for
agency conformance; and developing, implementing, and annually updating an
integrated SSPP to prioritize agency actions based on lifecycle return on
investment.
                                               -21-


Based on documentation provided by OASAM, DOL is actively addressing and
meeting 27 (93 percent) of 29 applicable requirements (see Figure 14 – Other
Reporting Requirements). 5


            Figure 14: Other Reporting Requirements
     28
     26
     24
     22
     20
     18
     16
                   29                          27                           27
     14
     12
     10
      8
      6
      4
      2
      0
                  Total                    Addressing                    Meeting

(See Attachment 10, Department Compliance with Environmental Laws and Regulations for
Reporting)

To address these requirements, DOL reports its progress via its SSPP which is
updated annually. Monitoring and reporting on achievement of SSPP goals are
provided semi-annually in the OMB Scorecard on Sustainability/Energy. DOL
also submits its GHG inventory and an Energy Management Report (describing
energy management activities and progress in implementing environmental and
energy performance requirements) to DOE annually. Energy and water savings
are reported via DOE’s web-based Compliance Tracking System (CTS).

    2. Assess DOL’s authority to reduce emissions of heat-trapping pollution.

We analyzed laws, regulations, and orders that contained measurable goals and
other requirements for federal agencies related to environmental and energy
performance. We also interviewed Department sustainability officials and
reviewed documentation provided in support of the Department’s sustainability
efforts. Based on our review and discussions with Department officials, we did
not identify any authority the Department has to reduce emissions of heat
trapping pollution to make the nation more resilient to the effects of climate
change beyond that which we cited in response to Question 1.

5
 Based on the documentation provided by OASAM, we could not determine if one requirement was
addressed or met.
                                       -22-



3. Assess DOL’s authority to make the nation more resilient to the effects
   of climate change.

The Department has established a working group consisting of emergency
management representatives, human resource professionals, and policy staff
who have been meeting regularly to identify areas of improvement in current
departmental emergency response policies and procedures. These efforts have
included initiatives such as incorporating best practices and lessons learned from
previous extreme weather events (e.g. Hurricane Sandy). In addition, the
Department drafted a Climate Change Adaption Plan which was included in its
2012 SSPP. DOL will evaluate its progress in meeting the plan’s goals and will
update the plan as required.

However, based on our review and discussions with Department officials, we did
not identify any additional authority the Department has to make the nation more
resilient to the effects of climate change.

4. Assess the most effective additional steps DOL could take to reduce
   emissions or strengthen resiliency.

As we noted in Question 3, the Department could take additional actions to meet
existing requirements related to Pollution and Waste Reduction, Sustainable
Buildings, and Regional and Local Planning. The Department reported in its
2013 SSPP that it has challenges in the sustainability arena with 99 percent of
the Department's buildings on 125 Job Corps Center campuses nationwide
consisting of “aged, unsustainable building stock” and a headquarters building
built in the early 1970s.

CONCLUSION

Our review was limited to the procedures described above and our analysis
relied on documentation provided by DOL. We did not validate the information
contained within this documentation. Had we performed additional procedures,
other matters may have come to our attention and would have been reported to
you.

We met with OASAM staff to discuss the results of our review and the contents of
this report. We considered the information and feedback obtained during those
meetings in preparing the report. We request management’s written response to
this report and its recommendations within ten business days from the date of the
report.

We extend our appreciation to OASAM officials and staff for their assistance and
cooperation during our review.
                                      -23-


OASAM RESPONSE

The Assistant Secretary of Administration and Management accepted the
analysis and agreed with all of the recommendations in the report; however,
Agency officials wanted to make three points of clarification.

Agency officials stated that they complied with the CEQ/OMB requirement to use
their template and instructions to complete the SSPP and include descriptions of
successes, challenges, lessons learned, and planned actions. We agree that
DOL complied with the CEQ/OMB template; however, EO 13514 also required
DOL to identify in its annual updates opportunities for improvement and
evaluation of past performance in order to extend or expand projects that have
net lifecycle benefits, and reassess or discontinue under-performing projects. In
our review of the 2013 SSPP, we did not find any instances where DOL identified
opportunities for improvements or evaluated its past performance in order to
extend/expand projects with net lifecycle benefits, or reassess/discontinue
under-performing projects.

Agency officials also noted that while OIG states that it could not assess DOL's
compliance with "pollution and waste reduction" waste diversion metrics, these
metrics are not in effect until the end of FY 2015. While we agree that these
metrics are not in effect until the end of FY 2015, DOL did not provide any
information on their progress to meet this approaching requirement. As such, we
were unable to determine if the Department will be in a position to meet this
requirement in FY 2015.

Finally, Agency officials noted that the report indicates that the requirements
identified were from our review and discussions with Departmental officials and
the OIG does not mention EO 13653, Preparing the United States for the Impacts
of Climate Change, issued November 1, 2013. In answering questions No. 3 and
No. 4 from the Congressional Bicameral Task Force on Climate Change, we
based our answers on our review and discussions with Department officials on
the five key directives identified by OASAM officials to provide the primary
metrics and requirements for it to manage climate change. At that time,
EO13653 was not one of the five key directives, as it had not yet been issued. As
such, EO 13653 was not included in the scope of this review.

The Agency’s entire response is contained in Attachment 11.

Attachments

   1.   List of Federal Environmental and Energy Legislation, Regulations,
        and Guidance

   2.   Summary of DOL Compliance with Key Federal Environmental and
        Energy Legislation, Regulations, and Guidance Directives
        Identified by DOL Officials
                                -24-


3.   Department Compliance with Environmental Laws and
     Regulations for GHG Emissions

4.   Department Compliance with Environmental Laws and
     Regulations for Water Efficiency

5.   Department Compliance with Environmental Laws and
     Regulations for Pollution and Waste Reduction

6.   Department Compliance with Environmental Laws and
     Regulations for Sustainable Buildings

7.   Department Compliance with Environmental Laws and
     Regulations for Electronic Stewardship

8.   Department Compliance with Environmental Laws and
     Regulations for Regional and Local Planning

9.   Department Compliance with Environmental Laws and
     Regulations for Procurement and Contracts

10. Department Compliance with Environmental Laws and
    Regulations for Reporting

11. Agency Response to Draft Report
                                             -25-


                                                                        Attachment 1

  List of Federal Environmental and Energy Legislation, Regulations, and Guidance
                                                                             Key Directives
    Federal Environmental and Energy                             Other        Identified by
  Legislation, Regulations, and Guidance            Metrics   Requirements   DOL Officials
1. EO 13514, Federal Leadership in
Environmental, Energy, and Economic                   8           37               
Performance
2. Energy Independence and Security Act               2            6               
3. Presidential Memorandum-Implementation
of Energy Savings Projects & Performance-             --           7
based Contracting for Energy Savings
4. EO 13423, Strengthening Federal
Environmental, Energy, and Transportation             3           14               
Management
5. EO 13221, Energy Efficient Standby Power
                                                      --           1
Devices
6. EO 12088, Federal Compliance with
                                                      --           7
Pollution Control Standards
7. Energy Policy Act of 2005 (EPACT)                  --           5               
8. National Energy Conservation Policy Act
                                                      1           23               
(NECPA)
9. National Environmental Policy Act (NEPA)           --           8
10. Federal Acquisition Regulation (FAR)              --           8
11. Title 40, Code of Federal Regulations
                                                      --           4
(CFR) Part 246, Solid Waste Disposal Act
12. OMB M-12-21, Addendum to OMB
Memorandum M-98-13 on Federal Use of
Energy Savings Performance Contracts                  --           2
(ESPCs) and Utility Energy Service Contracts
(UESCs)
13. OMB M-98-13, Federal Use of Energy
                                                      --           1
Savings Performance Contracting
14. Presidential Memorandum-Driving
Innovation and Creating Jobs in Rural America
                                                      --           7
through Biobased and Sustainable Product
Procurement
15. Presidential Memorandum-Federal Fleet
                                                      --           4
Performance
                                      -26-


 List of Federal Environmental and Energy Legislation, Regulations, and Guidance
                                                                      Key Directives
   Federal Environmental and Energy                       Other        Identified by
 Legislation, Regulations, and Guidance      Metrics   Requirements   DOL Officials

TOTALS                                         14          134
                                      -27-


                                                                    Attachment 2

   Summary of DOL Compliance with Key Federal Environmental and Energy
  Legislation, Regulations, and Guidance Directives Identified by DOL Officials
                           Addressing                        Meeting
                              Could Not                     Could Not
 Requirements     Yes No Determine % Yes No Determine                      %
GHG Emissions
10 Requirements 10        0       0      100     9     1        0          90
 (Attachment 3)

Water Efficiency
4 Requirements     4     0        0       100     4    0        0         100
 (Attachment 4)

   Pollution &
Waste Reduction
                   12    0        0       100     10   0        2          83
12 Requirements
 (Attachment 5)

  Sustainable
    Buildings
                   19    0        0       100     18   1        0          95
19 Requirements
 (Attachment 6)

   Electronic
  Stewardship
                   6     0        0       100     6    0        0         100
6 Requirements
(Attachment 7)

Regional & Local
    Planning
                   5     0        0       100     3    0        2          60
5 Requirements
 (Attachment 8)

Procurements &
   Contracts
                   9     0        1          90   9    0        1          90
10 Requirements
 (Attachment 9)

   Reporting
29 Requirements    27    1        1          93   27   1        1          93
(Attachment 10)

     Total         92    1        2          97   86   3        6          91
             -28-




PAGE INTENTIONALLY LEFT BLANK
                                                  -29-


                                                                                Attachment 3

Department Compliance with Environmental Laws and Regulations for GHG
Emissions

Summary:

Five of five metrics addressed, five of five metrics met.
Five of five other requirements addressed, four of five other requirements met.

           Department Compliance with Environmental Laws and Regulations for GHG Emissions
    Source       Code           Requirement         Addressing     Meeting                Notes
                                                    Requirement Requirement
    EISA         Metric  Amends the Energy Policy                              According to the 2013
   Sec 142         1     and Conservation Act -                                SSPP and OMB
                         Beginning in FY 2010,                                 Scorecard, DOL reduced
                         each federal agency shall                             petroleum use by 15.4%
                         reduce petroleum                                      since 2005 and is on
                         consumption and increase                              target for a 20%
                         alternative fuel                                      reduction by 2015. DOL
                         consumption each year by                              also increased its
                         an amount necessary to                                alternative fuel
                         achieve at least a 20                                 consumption by 202.4%,
                         percent reduction in                                  having already
                         annual petroleum                                      exceeded its goal of
                         consumption and a 10                                  159.4% by 2015;
                         percent increase in annual                            however, it should be
                         alternative fuel                Y             Y       noted that its alternative
                         consumption by October 1,                             fuel usage declined from
                         2015, as calculated from                              the previous (from
                         the baseline established                              226.8%) – according to
                         for FY 2005.                                          OASAM, this is due to
                                                                               lack of ethanol
                                                                               infrastructure near DOL
                                                                               locations and the
                                                                               addition of more fuel
                                                                               efficient low greenhouse
                                                                               gas and electric hybrid
                                                                               vehicles into the DOL
                                                                               fleet.
                                                   -30-

        Department Compliance with Environmental Laws and Regulations for GHG Emissions
 Source       Code            Requirement           Addressing    Meeting             Notes
                                                    Requirement Requirement
 EISA         Metric  The head of each federal                              EISA exempts
Sec 246        N/A    agency shall install at least                         Department of Defense
                      one renewable fuel pump                               fueling centers with a
                      at each federal fleet                                 fuel turnover rate of less
                      fueling center in the United                          than 100,000 gallons
                      States under the                                      from this requirement.
                      jurisdiction of the agency
                      by January 1, 2010.                                   DOE issued guidance
                                                                            extending that
                                                                            exemption to all federal
                                                                            agencies for a number of
                                                        N/A         N/A
                                                                            reasons, including cost-
                                                                            effectiveness.

                                                                               According to OASAM, it
                                                                               is “not aware” of any
                                                                               DOL fleet refueling
                                                                               centers under its
                                                                               jurisdiction with a fuel
                                                                               turnover rate of 100,000
                                                                               gallons or greater.

EO 13423      Metric    Ensure that, if the agency                             As of 2012, DOL
Sec 2.g.i      2        operates a fleet of at least                           reduced fleet fuel
                        20 motor vehicles, the                                 consumption by 15.4%,
                        agency, relative to agency                             just over the 14%
                        baselines for FY 2005,                                 required cumulative to
                                                          Y           Y
                        reduces the fleet’s total                              date reduction.
                        consumption of petroleum
                        products by 2 percent
                        annually through the end
                        of fiscal year 2015.
EO 13423      Metric    Ensure that, if the agency                             As of 2012, DOL had
Sec 2.g.ii     3        operates a fleet of at least                           achieved a 202.4%
                        20 motor vehicles, the                                 progress towards the
                        agency, relative to agency                             fleet alternative fuel
                        baselines for FY 2005,            Y           Y        consumption goal, thus
                        increases the total fuel                               already surpassing the
                        consumption that is non-                               159.4% 2015 target for
                        petroleum-based by 10                                  increasing alternative
                        percent annually.                                      fuel use.
EO 13514      Metric    Establish and report to the                            The target for DOL was
 Sec 2(a)      4        CEQ Chair and OMB                                      established at 27.7%
                        Director (within 90 days) a                            compared to FY 2008.
                        percentage reduction                                   For 2012, DOL reported
                        target for agency-wide                                 a 25.5% agency wide
                                                          Y           Y
                        reductions of scope 1 and                              reduction in these GHG
                        2 GHG emissions in                                     emissions relative to the
                        absolute terms by FY                                   FY 2008 baseline, just a
                        2020, relative to a FY                                 few percentage points
                        2008 baseline.                                         from the 2020 target.
EO 13514      Metric    Establish and report to the                            The target for DOL was
                                                          Y           Y
 Sec 2(b)      5        CEQ Chair and OMB                                      established at 23.4%
                                                             -31-

        Department Compliance with Environmental Laws and Regulations for GHG Emissions
Source        Code            Requirement           Addressing    Meeting               Notes
                                                    Requirement Requirement
                      Director (within 240 days)                            compared to FY2008.
                      a percentage reduction                                For 2012, DOL reported
                      target for reducing agency-                           a 31.9% agency wide
                      wide scope 3 GHG                                      reduction in these GHG
                      emissions in absolute                                 emissions relative to the
                      terms by FY 2020, relative                            FY 2008 baseline,
                      to a FY 2008 baseline.                                already exceeding the
                                                                            target established for
                                                                            2020.
 EISA         Other   Amends the Energy Policy                              According to information
Sec 141        Req.   Act of 1992 - No federal                              provided by OASAM, in
                1     agency shall acquire a                                FY 2011 DOL leased
                      light duty motor vehicle or                           707 new light duty
                      medium duty passenger                                 vehicles, 501 of which
                      vehicle that is not a low                             were alternative fuel
                                                                                                    6
                      GHG emitting vehicle,                                 vehicles (AFV) (71%).
                      except if the head of the                             When DOL leases
                      agency certifies in writing,                          vehicles that are not
                      in a separate certification                           “low-GHG,” it requires a
                      for each individual vehicle                           justification with mission
                      purchased, either that no                             specific reasons
                      low GHG emitting vehicle                              documented. This form
                      is available to meet the                              is signed by the DOL
                      functional needs of the                               sub-agency
                      agency and details in                                 administrative officer.
                      writing the functional             Y           N      The majority of non-low
                      needs that could not be                               GHG vehicles requested
                      met with a low GHG                                    and approved at DOL
                      emitting vehicle; or that the                         are for investigative,
                      agency has taken more                                 protective and
                      specific alternative cost-                            surveillance activities, or
                      effective measures to                                 large capacity
                      reduce petroleum                                      passenger vehicles for
                      consumption.                                          transporting Job Corps
                                                                            students.

                                                                                                        However, separate
                                                                                                        certifications for each
                                                                                                        vehicle are not certified
                                                                                                        by the head of the
                                                                                                        agency (i.e., Secretary
                                                                                                        of Labor) as required.




      6
       Eight non-AFVs leased by OIG are not included in these numbers because, to maintain independence, the Inspector
      General approves non-AFV’s for the OIG.
                                                -32-

           Department Compliance with Environmental Laws and Regulations for GHG Emissions
 Source          Code            Requirement           Addressing    Meeting             Notes
                                                       Requirement Requirement
EO 13423         Other   Ensure that (i) at least half                         According to OASAM,
 Sec 2.b          Req.   of the statutorily required                           100% of DOL’s
                   2     renewable energy                                      renewable energy
                         consumed by the agency                                comes from “new
                         in a fiscal year comes from                           renewable sources”
                         new renewable sources,                                placed into service after
                         and (ii) to the extent                                January 1, 1999.
                         feasible, the agency
                         implements renewable                                  Additionally, the 2013
                         energy generation projects                            SSPP noted that Job
                         on agency property for                                Corps Centers
                         agency use.                                           produce renewable
                                                            Y           Y
                                                                               energy with wind
                                                                               turbines at Pine Ridge,
                                                                               Angell, Cassadaga, and
                                                                               Hawaii/Maui; solar
                                                                               photovoltaic production
                                                                               at Westover, Edison,
                                                                               and Woodland; and
                                                                               solar hot water at
                                                                               Miami. Loring and
                                                                               Albuquerque produce
                                                                               domestic hot water
                                                                               using biomass.
EO 13423         Other   Ensure that, if the agency                            The DOL Fleet Inventory
Sec 2.g.iii       Req.   operates a fleet of at least                          indicated that DOL
                   3     20 motor vehicles, the                                owns/leases 313 PIH
                         agency uses plugin hybrid                             vehicles.
                         (PIH) vehicles when PIH
                         vehicles are commercially                             According to OASAM,
                         available at a cost                                   DOL uses PIH vehicles
                                                            Y           Y
                         reasonably comparable,                                when they meet agency
                         on the basis of life-cycle                            mission needs. In FY
                         cost, to non-PIH vehicles.                            2014, the Department
                                                                               will be adding over 80
                                                                               more electric hybrid
                                                                               vehicles to the DOL
                                                                               fleet.
EO 13514         Other   Establish and report to the                           The 2013 SSPP showed
 Sec 2(c)         Req.   CEQ Chair and OMB                                     the reporting of these
                   4     Director a comprehensive                              inventories as required.
                         inventory of absolute GHG
                         emissions, including scope
                         1, scope 2, and specified
                         scope 3 emissions (i)              Y           Y
                         within 15 months of the
                         date of this order for fiscal
                         year 2010, and (ii)
                         thereafter, annually at the
                         end of January, for the
                         preceding fiscal year.
                                               -33-

        Department Compliance with Environmental Laws and Regulations for GHG Emissions
Source        Code            Requirement          Addressing    Meeting              Notes
                                                   Requirement Requirement
EPACT         Other   Amends Section                                        The 2013 SSPP
Sec 701        Req.   400AA(a)(3)(E) of the                                 indicated that one of the
                5     Energy Policy and                                     Department’s goals with
                      Conservation Act – Dual                               respect to Fleet
                      fueled vehicles acquired                              Management is to
                      pursuant to this section                              “increase utilization of
                      shall be operated on                                  alternative fuel in dual-
                      alternative fuels unless the                          fueled vehicles” and they
                      Secretary of Energy                                   plan to address this goal
                      determines that an agency                             by re-issuing “policy that
                      qualifies for a waiver.                               agencies use alternative
                                                                            fuel as much as
                                                                            practicable.” The plan
                                                                            also stated that lack of
                                                                            local AFV infrastructure
                                                                            makes it challenging to
                                                                            meet the AFV fuel
                                                                            increase targets.

                                                                               Likewise, the 2012
                                                                               SSPP indicated that
                                                        Y             Y        DOL was “challenged to
                                                                               require that AFVs be
                                                                               fueled with E85 fuel
                                                                               because of limited
                                                                               infrastructure
                                                                               availability.”

                                                                               Despite the
                                                                               Department’s difficulty in
                                                                               locating E85 fuel, it has
                                                                               continued to add E85
                                                                               vehicles to its fleet.
                                                                               However, DOL does
                                                                               apply for annual waivers
                                                                               from the Secretary of
                                                                               Energy. For FY 2014,
                                                                               DOL applied for 469
                                                                               waivers; of which 426
                                                                               were approved (note:
                                                                               agencies apply for
                                                                               waivers a year in
                                                                               advance).
             -34-




PAGE INTENTIONALLY LEFT BLANK
                                                   -35-




                                                                                   Attachment 4

Department Compliance with Environmental Laws and Regulations for Water
Efficiency

Summary:
Two of two metrics addressed, two of two metrics met.
Two of two other requirements addressed, two of two other requirements met.

             Department Compliance with Environmental Laws and Regulations for Water Efficiency
  Source        Code             Requirement       Addressing      Meeting                 Notes
                                                   Requirement   Requirement
 EO 13514       Metric   Reduce potable water                                   As of 2012, DOL reduced
 Sec 2(d)(i)      1      consumption intensity 2%                               potable water intensity by
                         annually through FY 2020,                              6.6%, under the 10%
                         or 26% by the end of FY                                target goal for 2012. DOL
                         2020, relative to a FY                                 scored a failing Red
                         2007 baseline, by                                      score on the OMB
                         implementing water                                     January, 2013 Scorecard,
                         management strategies                                  as the department was
                         including water-efficient                              not on track to achieve
                         and low-flow fixtures and                              the 26% target for 2020.
                         efficient cooling towers.
                                                        Y              Y        However, DOL’s FY 2013
                                                                                “DOE/Federal Energy
                                                                                Management Program
                                                                                (FEMP) GHG Inventory
                                                                                Performance Summary”
                                                                                shows that DOL is back
                                                                                on track with a 21%
                                                                                reduction in water in FY
                                                                                2013 as compared with
                                                                                the FY 2007 baseline,
                                                                                already exceeding the
                                                                                2015 target of 16%.
 EO 13514       Metric   Reduce agency industrial,                              DOL landscaping water
    Sec           2      landscaping, and                                       and the small amounts of
  2(d)(ii)               agricultural water                                     water used for industrial
                         consumption 2% annually,                               and agricultural use is not
                         or 20% by the end of FY                                separately metered
                         2020, relative to a FY                                 because it is not
                         2010 baseline.                                         considered at this time to
                                                        Y              Y
                                                                                be cost effective to add
                                                                                separate metering.
                                                                                Therefore, DOL’s strategy
                                                                                has been to focus on
                                                                                overall water use
                                                                                reduction – which was
                                                                                reduced 21% in FY 2013.
                                                 -36-

           Department Compliance with Environmental Laws and Regulations for Water Efficiency
 Source       Code            Requirement           Addressing    Meeting                Notes
                                                    Requirement Requirement
EO 13514      Other    Identify, promote, and                                 The 2013 SSPP noted
   Sec        Req.     implement water reuse                                  that Job Corps identified
 2(d)(iii)      1      strategies consistent with                             and promoted water
                       state law that reduce                                  reuse strategies
                       potable water                                          consistent with state laws
                       consumption.                                           that reduce public water
                                                         Y           Y        consumption.
                                                                              Additionally, outside the
                                                                              SSPP, DOL noted
                                                                              several accomplishments
                                                                              addressing water
                                                                              conservation in
                                                                              construction projects.
EO 13514      Other    Implement and achieve                                  According to OASAM, all
   Sec        Req.     the objectives identified in                           new Job Corps
 2(d)(iv)       2      the stormwater                                         construction meets the
                       management guidance                                    New Construction
                       referenced in section 14.                              Standard of the Guiding
                                                                              Principles, which requires
                                                                              agencies to employ
                                                                              design and construction
                                                                              strategies that reduce
                                                                              stormwater runoff and
                                                                              discharges of polluted
                                                                              water offsite and, to the
                                                                              maximum extent
                                                                              technically feasible,
                                                                              maintain or restore the
                                                                              predevelopment
                                                                              hydrology of the site
                                                         Y           Y
                                                                              using site planning,
                                                                              design, construction, and
                                                                              maintenance strategies.
                                                                              Job Corps also adheres
                                                                              to the EPA guidance
                                                                              issued to address this
                                                                              section of the Guiding
                                                                              Principles for all new
                                                                              construction.

                                                                                In addition, the 2013
                                                                                SSPP noted that Job
                                                                                Corps is utilizing rain
                                                                                gardens to capture runoff
                                                                                from center roofs that
                                                                                allow stormwater to
                                                                                infiltrate into the ground.
                                                         -37-


                                                                                         Attachment 5

Department Compliance with Environmental Laws and Regulations for Pollution and
Waste Reduction

Summary:
Two of two metrics addressed. We were unable to determine if DOL met either of these
metrics.
Ten of ten other requirements addressed. Ten of ten other requirements met.

          Department Compliance with Environmental Laws and Regulations for Pollution and Waste Reduction
 Source      Code            Requirement           Addressing     Meeting                       Notes
                                                 Requirement Requirement
   EO       Metric Divert at least 50% of non-                                  The 2013 SSPP noted that DOL is
 13514        1     hazardous solid waste by the                                working with GSA to use a single
  Sec               end of FY 2015.                                             waste management company to
 2(e)(ii)                                                                       remove solid waste, and reduce the
                                                                                solid waste sent to landfills. DOL has
                                                                                established recycling programs at
                                                                                DOL sites nationwide and is a
                                                                                national level participant in GSA’s
                                                                                recycling program. Additionally, DOL
                                                                                tracks waste diversion to monitor
                                                                 Could Not
                                                       Y                        that 50% of solid waste generated is
                                                                 Determine
                                                                                diverted from landfills.

                                                                                   However, according to OASAM,
                                                                                   CEQ has yet to issue guidance for
                                                                                   this requirement, but DOL is tracking
                                                                                   waste diversion to prepare for FY
                                                                                   2015. We cannot determine if DOL is
                                                                                   on target to meet this goal in FY
                                                                                   2015 based on the information
                                                                                   provided by OASAM.
   EO        Metric   Divert at least 50% of                                       Guidance has not yet been issued by
 13514        2       construction and demolition                                  OMB/CEQ on accounting for the
  Sec                 materials and debris by the end                              diversion of construction and
 2(e)(iii)            of FY 2015.                                                  demolition materials and debris.
                                                                                   Nevertheless, DOL is working to
                                                                     Could Not     develop protocols for tracking
                                                         Y
                                                                     Determine     construction and demolition waste
                                                                                   diversion at Job Corps facilities. We
                                                                                   cannot determine if DOL is on target
                                                                                   to meet this goal in FY 2015 based
                                                                                   on the information provided by
                                                                                   OASAM.
                                                        -38-

         Department Compliance with Environmental Laws and Regulations for Pollution and Waste Reduction
Source      Code             Requirement             Addressing    Meeting                       Notes
                                                     Requirement Requirement
   EO       Other Ensure that the agency                                       The 2013 SSPP noted how DOL is
13423       Req.   increases diversion of solid                                working with GSA to use a single
  Sec         1    waste, as appropriate.                                      waste management company to
  2.e.ii                                                                       remove solid waste, and reduce the
                                                                               solid waste sent to landfills. DOL
                                                                               also established recycling programs
                                                          Y           Y
                                                                               at DOL sites nationwide and is a
                                                                               national level participant in GSA’s
                                                                               recycling program. Additionally, DOL
                                                                               is tracking waste diversion to monitor
                                                                               that 50% of solid waste is diverted
                                                                               from landfills in FY 2015.
   EO       Other Ensure that the agency                                       The 2013 SSPP noted how DOL is
13423       Req.   maintains cost effective waste                              working with GSA to use a single
  Sec         2    prevention and recycling                                    waste management company to
 2.e.iii           programs in its facilities.                                 remove solid waste, and reduce the
                                                                               solid waste sent to landfills. DOL
                                                                               also established recycling programs
                                                          Y           Y
                                                                               at DOL sites nationwide and is a
                                                                               national level participant in GSA’s
                                                                               recycling program. Additionally, DOL
                                                                               is tracking waste diversion to monitor
                                                                               that 50% of solid waste is diverted
                                                                               from landfills in FY 2015.
   EO       Other Minimize the generation of                                   DOL minimizes the generation of
13514       Req.   waste and pollutants through                                waste and pollutants through its
  Sec         3    source reduction.                                           department-wide recycling programs,
 2(e)(i)                                                                       by using R2/eSteward recyclers of
                                                                               electronic equipment, and with other
                                                                               DOL programs such as the
                                                                               electronic equipment reuse program.
                                                          Y           Y
                                                                               Additionally, the SSPP provides
                                                                               numerous examples of source
                                                                               reduction being implemented at Job
                                                                               Corps campuses including
                                                                               composting of food waste, integrated
                                                                               pest management, and waste
                                                                               tracking and management.
   EO       Other Reduce printing paper use and                                DOL requires the use of recycled
13514       Req.   acquiring uncoated printing and                             content paper for all printing within
  Sec         4    writing paper containing at least      Y           Y        the Department and purchasing
2(e)(iv)           30% post-consumer fiber.                                    recycled paper is a procurement
                                                                               requirement.
                                                        -39-

         Department Compliance with Environmental Laws and Regulations for Pollution and Waste Reduction
Source      Code             Requirement           Addressing    Meeting                        Notes
                                                   Requirement Requirement
   EO       Other Reduce and minimize the                                      The 2013 SSPP showed several
 13514      Req.   quantity of toxic and hazardous                             strategies the Department is utilizing
  Sec         5    chemicals and materials                                     to address this requirement. For
 2(e)(v)           acquired, used, or disposed of.                             example, to prevent pollution risks
                                                                               related to hazardous materials, Job
                                                                               Corps does not exceed Emergency
                                                                               Planning and Community Right to
                                                                               Know Act storage requirements for
                                                        Y            Y
                                                                               any chemical. DOL contracts for
                                                                               cleaning materials require the use of
                                                                               biobased products. Additionally, one
                                                                               of the goals of the Department’s
                                                                               “Green Procurement Handbook” is
                                                                               to reduce or eliminate the acquisition
                                                                               and use of toxic or hazardous
                                                                               chemicals.
   EO       Other Increase the diversion of                                    The 2013 SSPP stated that DOL will
 13514      Req.   compostable and organic                                     install composting systems to allow
                                                        Y            Y
  Sec         6    material from the waste                                     the recycling of biodegradable waste
2(e)(vi)           stream.                                                     where practicable.
   EO       Other Implement integrated pest                                    The 2013 SSPP showed concerted
 13514      Req.   management and other                                        efforts underway at both the Frances
  Sec         7    appropriate landscape                                       Perkins Building and certain Job
2(e)(vii)          management practices.                                       Corps locations. The Frances
                                                                               Perkins Building requires integrated
                                                        Y            Y         pest management. Other appropriate
                                                                               landscape management practices
                                                                               are being systematically
                                                                               implemented through the Job Corps
                                                                               Center of Environmental Excellence
                                                                               Program.
   EO       Other Increase agency use                                          According to OASAM, DOL has
 13514      Req.   of acceptable alternative                                   increased its use of acceptable
  Sec         8    chemicals and processes in                                  chemical alternatives including the
2(e)(viii)         keeping with the agency’s            Y            Y
                                                                               use of “green cap” fluorescents that
                   procurement policies.
                                                                               are less hazardous and janitorial
                                                                               products that are biobased.
   EO       Other Decrease agency use of                                       According to OASAM, it is
 13514      Req.   chemicals where such                                        substituting its use of these
  Sec         9    decrease will assist the agency                             chemicals via the increase of
                                                        Y            Y
2(e)(ix)           in achieving GHG reduction                                  acceptable chemical alternatives
                   targets.                                                    including “green cap” fluorescents
                                                                               and biobased products.
   EO       Other Report in accordance with the                                The 2013 SSPP cited that Job Corps
 13514      Req.   requirements of sections 301                                does not exceed storage
  Sec        10    through 313 of the Emergency                                requirements for any chemical
 2(e)(x)           Planning and Community Right-                               consistent with those requirements.
                                                        Y            Y
                   to-Know Act of1986.
                                                                               According to OASAM, no other DOL
                                                                               agencies exceed these storage
                                                                               requirements either.
           -40-




PAGE INTENTIONALLY LEFT BLANK
                                                    -41-


                                                                                    Attachment 6

Department Compliance with Environmental Laws and Regulations for Sustainable
Buildings

Summary:
2 of 2 metrics addressed, 1 of 2 metrics met.
17 of 17 other requirements addressed, 17 of 17 other requirements met.

           Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
 Source     Code            Requirement            Addressing    Meeting                    Notes
                                                   Requirement Requirement
   EO       Metric Ensure at least 15% of existing                            As of 2012, DOL showed only
 13514        1    agency buildings (above 5,000                              0.01%, and hence no real
  Sec              gross square feet) and building                            progress in ensuring at least
 2(g)(iii)         leases (above 5,000 gross                                  15% of existing agency
                   square feet) meet the Guiding                              buildings (exceeding 5,000
                   Principles by FY 2015 and that                             gross square feet) and building
                   the agency makes annual                                    leases (exceeding 5,000 gross
                   progress towards 100%                                      square feet) meet the Guiding
                   conformance with the Guiding                               Principles by FY 2015. As of
                   Principles for its building                                2011, DOL showed 1.4%
                   inventory.                                                 progress, hence the situation
                                                                              has worsened year over year.
                                                        Y           N
                                                                              According to OASAM, DOL has
                                                                              a number of buildings currently
                                                                              being renovated to comply with
                                                                              the Guiding Principles and
                                                                              expects to show significant
                                                                              progress on meeting the 15%
                                                                              target by the end of FY 2015.

                                                                                Based on the Department’s
                                                                                current progress, it may not be
                                                                                able to meet this requirement
                                                                                by 2015.
                                                   -42-


        Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
Source   Code             Requirement              Addressing    Meeting                Notes
                                                   Requirement Requirement
NECPA Metric Each agency shall apply                                       Per the 2013 SSPP, DOL
  Sec      2    energy conservation measures                               reduced energy intensity by
8253(a)         to, and shall improve the                                  28.1% - the target goal for 2012
  (1)           design for the construction of,                            was 21%.
                the federal buildings of the
                agency (including each
                industrial or laboratory facility)
                so that the energy consumption
                per gross square foot of the
                federal buildings of the agency
                in FY 2006 through 2015 is              Y           Y
                reduced, as compared with the
                energy consumption per gross
                square foot of the Federal
                buildings of the agency in FY
                2003, by the following
                percentages: 2006 - 2%; 2007
                – 4%; 2008 – 9%; 2010 – 15%;
                2011 – 18%; 2012 – 21%; 2013
                – 24%; 2014 – 27%; 2015 –
                30%
                                                   -43-


        Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
Source   Code             Requirement             Addressing    Meeting                  Notes
                                                  Requirement Requirement
 EISA    Other Effective beginning on the date                             According to OASAM, because
Sec 435  Req.   that is 3 years after the date of                          DOL leases new space through
           1    enactment of this Act, no                                  GSA, GSA is responsible for
                federal agency shall enter into                            this provision and these
                a contract to lease space in a                             requirements are in all new
                building that has not earned the                           GSA occupancy agreements.
                Energy Star label in the most                              To ensure that the space it
                recent year, unless: (a) no                                leases has earned the Energy
                space is available in a building                           Star label, DOL routinely works
                that meets the functional                                  with GSA during the leasing
                requirements of an agency,                                 process.
                including locational needs; (b)
                the agency proposes to remain
                in a building that the agency
                has occupied previously; (c)
                the agency proposes to lease a
                building of historical,
                architectural, or cultural
                significance or space in such a
                                                       Y           Y
                building; or (d) the lease is for
                not more than 10,000 gross
                square feet of space. If one of
                these conditions is met, the
                lease contract must include
                provisions requiring that, prior
                to occupancy (or, if already
                occupying the space, not later
                than 1 year after signing the
                contract), the space will be
                renovated for all energy
                efficiency and conservation
                improvements that would be
                cost effective over the life of
                the lease, including
                improvements in lighting,
                windows, and heating,
                ventilation, and air conditioning
                systems.
                                                     -44-


        Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
Source   Code              Requirement           Addressing    Meeting                   Notes
                                                 Requirement Requirement
 EISA    Other The sponsor of any                                          Per the FY 2013 SSPP, all new
Sec 438  Req.   development or redevelopment                               Job Corps construction meets
           2    project involving a federal                                the New Construction Standard
                facility with a footprint that                             of the Guiding Principles. The
                exceeds 5,000 square feet                                  Guiding Principles require that
                shall use site planning, design,                           agencies employ design and
                construction, and maintenance                              construction strategies that
                strategies for the property to                             reduce storm water runoff and
                maintain or restore, to the                                discharges of polluted water
                maximum extent technically                                 offsite and, to the maximum
                feasible, the predevelopment                               extent technically feasible,
                hydrology of the property with                             maintain or restore the
                                                      Y           Y
                regard to the temperature, rate,                           predevelopment hydrology of
                volume, and duration of flow.                              the site with regard to
                                                                           temperature, rate, volume, and
                                                                           duration of flow using site
                                                                           planning, design, construction,
                                                                           and maintenance strategies.
                                                                           Additionally, Job Corps follows
                                                                           the EPA guidance issued to
                                                                           address this section of the
                                                                           Guiding Principles for all new
                                                                           construction.

  EO       Other   Ensure all new construction,                              The 2013 SSPP cites that all
13514      Req.    major renovations, or repair                              new Job Corps construction will
 Sec         3     and alteration of federal                                 meet the Guiding Principles.
2(g)(ii)           buildings comply with the
                   Guiding Principles.                 Y            Y



  EO       Other   Pursue cost-effective,                                    According to OASAM, DOL
13514      Req.    innovative strategies (e.g.,                              identifies cost-effective or
  Sec        4     highly-reflective and vegetated                           innovative strategies through
2(g)(iv)           roofs) to minimize consumption                            the EISA Sec. 432 covered
                   of energy, water, and                                     facility audit process. The
                   materials.                                                department pursues those that
                                                       Y            Y
                                                                             have a positive return on
                                                                             investment and that can be
                                                                             implemented during building
                                                                             construction or renovation.
                                                     -45-


          Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
Source     Code              Requirement            Addressing    Meeting                   Notes
                                                    Requirement Requirement
  EO       Other Manage existing building                                    According to OASAM, DOL
 13514     Req.   systems to reduce the                                      conducts periodic preventative
  Sec        5    consumption of energy, water,                              maintenance on building
2(g)(v)           and materials, and identifying                             systems to reduce the
                  alternatives to renovation that                            consumption of energy, water,
                  reduce existing asset deferred                             and materials, and identify
                  maintenance costs.                                         alternatives to renovation that
                                                                             reduce existing asset deferred
                                                                             maintenance costs at the
                                                                             Frances Perkins Building and
                                                                             Mine Safety and Health
                                                         Y           Y
                                                                             Administration facilities. Job
                                                                             Corps’ Facility Maintenance for
                                                                             Job Corps Centers outlines the
                                                                             requirements for preventative
                                                                             maintenance which align with
                                                                             the Guiding Principles and
                                                                             include energy and water
                                                                             conservation so as to extend
                                                                             the lifecycle of equipment and
                                                                             reduce the need for renovation
                                                                             and reduce maintenance costs.
  EO       Other When adding assets to agency                                .According to OASAM, there
 13514     Req.   building inventories, identify                             are substantial activities
  Sec        6    opportunities to consolidate                               occurring across DOL as part of
2(g)(vi)          and dispose of existing assets,                            the President’s “Freeze the
                  optimize the performance of                                Footprint” initiative. In addition,
                                                         Y           Y
                  the agency’s real-property                                 the 2012 SSPP noted several
                  portfolio, and reduce                                      disposals of assets in building
                  associated environmental                                   projects with replacement items
                  impacts.                                                   that were more environmentally
                                                                             sustainable.
  EO       Other Ensure rehabilitation of                                    The Department adheres to all
 13514     Req.   Federally-owned historic                                   Advisory Council for Historic
  Sec        7    buildings utilizes best practices                          Preservation (Section 106 of
2(g)(vii)         and technologies in retrofitting       Y           Y       the National Historic
                  to promote long-term viability of                          Preservation Act) and NEPA
                  the buildings.                                             requirements and submits all
                                                                             required reports.
                                                    -46-


          Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
Source     Code             Requirement           Addressing    Meeting                    Notes
                                                  Requirement Requirement
NECPA      Other Not later than January 1, 2005,                             The DOL SSPP is developed,
  Sec      Req.   to the maximum extent                                      implemented and annually
8253(b)      8    practicable, install in federal                            updated so as to prioritize
  (1)             buildings owned by the United                              agency actions based on
                  States all energy and water                                lifecycle return on investment.
                  conservation measures with                                 For example, energy efficiency
                  payback periods of less than                               measures identified in the EISA
                  10 years, as determined by                                 Sec. 432 audits are set as a
                  using life cycle cost methods                              strategic priority in the SSSPP
                  established by the Secretary of      Y           Y         and cost savings are reported
                  Energy.                                                    in the DOE/FEMP GHG
                                                                             inventory and in the CTS
                                                                             database. The DOE/FEMP
                                                                             GHG inventory calculated for
                                                                             FY 2013 that DOL’s $1.6M
                                                                             investment in energy
                                                                             management is expected to
                                                                             have a simple return on
                                                                             investment of 8 years.
NECPA      Other Perform energy surveys of its                               The frequency of DOL energy
  Sec      Req.   Federal buildings to the extent                            surveying is determined
8253(d)      9    necessary and update such                                  pursuant to EISA 2007. The
  (2)             surveys as needed,                                         CTS database shows that DOL
                  incorporating any relevant           Y           Y         met its FY 2012 compliance
                  information obtained from the                              target by auditing 100% of its
                  survey conducted pursuant to                               covered facilities that in the
                  section 8258b of this title.                               aggregate represent 75.4% of
                                                                             DOL’s total energy use.
NECPA      Other Using such surveys, determine                               DOL determines the cost and
  Sec      Req.   the cost and payback period of                             simple payback of
8253(d)     10    energy and water conservation                              implementing energy
  (3)             measures likely to achieve the                             conservation measures after
                  requirements of this section.        Y           Y         conducting audits and
                                                                             estimating the energy and
                                                                             conservation cost savings. This
                                                                             information is reported into
                                                                             CTS.
NECPA      Other Install energy and water                                    DOL-implemented energy and
  Sec      Req.   conservation measures that will                            water conservation measures
8253(d)     11    achieve the requirements of                                are reported annually into CTS.
  (4)             this section through the             Y           Y
                  methods and procedures
                  established pursuant to section
                  8254 of this title.
                                                     -47-


          Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
Source     Code              Requirement            Addressing    Meeting                  Notes
                                                    Requirement Requirement
NECPA      Other Ensure that the operation and                               According to OASAM, DOL
  Sec      Req.   maintenance procedures                                     operations and maintenance
8253(d)     12    applied under this section are                             including periodic preventative
  (5)             continued.                                                 maintenance on building
                                                                             systems is designed to reduce
                                                                             the consumption of energy and
                                                                             water consumption. Job Corps’
                                                                             Facility Maintenance for Job
                                                         Y           Y       Corps Centers outlines the
                                                                             requirements for preventative
                                                                             maintenance which align with
                                                                             the Guiding Principles and
                                                                             include energy and water
                                                                             conservation so as to extend
                                                                             the lifecycle of equipment and
                                                                             reduce the need for renovation
                                                                             and reduce maintenance costs.
NECPA      Other By October 1, 2012, in                                      According to OASAM, DOL
  Sec      Req.   accordance with guidelines                                 follows DOE’s “Guidance for
8253(e)     13    established by the Secretary of                            Electric Metering in Federal
  (1)             Energy, all federal buildings                              Buildings” to meet this
                  shall, for the purposes of                                 requirement. These guidelines
                  efficient use of energy and                                state that agencies are
                  reduction in the cost of                                   “required to install standard or
                  electricity used in such                                   advanced meters at all federal
                  buildings, be metered. Each                                buildings to the maximum
                  agency shall use, to the               Y           Y       extent practicable, by October
                  maximum extent practicable,                                1, 2012.” DOL developed a
                  advanced meters or advanced                                metering plan to install meters
                  metering devices that provide                              where it would be cost-effective
                  data at least daily and that                               to do so. OASAM reported that
                  measure at least hourly                                    the Department has installed
                  consumption of electricity in the                          1,097 meters, including 186
                  federal buildings of the agency.                           advanced meters, but is unsure
                                                                             exactly how many of its 2,401
                                                                             total buildings are metered.
NECPA      Other Not later than October 1, 2016,                             According to OASAM, DOL
  Sec      Req.   each agency shall provide for                              buildings are metered for
8253(e)     14    equivalent metering of natural                             natural gas and steam but
  (1)             gas and steam, in accordance                               campus type facilities such as
                  with guidelines established by                             the Job Corps facilities are not
                                                         Y           Y
                  the Secretary of Energy. Such                              sub-metered if not cost-
                  data shall be incorporated into                            effective.
                  existing federal energy tracking
                  systems and made available to
                  federal facility managers.
                                                       -48-


          Department Compliance with Environmental Laws and Regulations for Sustainable Buildings
Source     Code             Requirement             Addressing    Meeting                  Notes
                                                    Requirement Requirement
NECPA      Other Each federal agency shall                                   According to OASAM, Job
 Sec       Req.   ensure that any large capital                              Corps large capital energy
8253(f)     15    energy investment in an                                    investments are require (via
  (1)             existing building that is not a                            contract) energy efficient
                  major renovation but involves                              designs, systems, equipment,
                  replacement of installed                                   controls and cost-effectiveness.
                  equipment (such as heating                                 Decisions are reviewed at
                  and cooling systems), or               Y           Y       multiple levels to ensure that
                  involves renovation,                                       applicable requirements are
                  rehabilitation, expansion, or                              met.
                  remodeling of existing space,
                  employs the most energy
                  efficient designs, systems,
                  equipment, and controls that
                  are life-cycle cost effective.
NECPA      Other The design of new federal                                   According to OASAM, the DOL
  Sec      Req.   buildings, and the application of                          SSPP is developed,
8254(b)     16    energy conservation measures                               implemented and annually
  (1)             to existing federal buildings,                             updated so as to prioritize
                  shall be made using life cycle                             agency actions based on
                  cost methods and procedures                                lifecycle return on investment.
                  established by the Secretary of                            The DOE/FEMP GHG inventory
                  Energy.                                                    calculated for FY 2013 that
                                                                             department-wide $1.6M
                                                                             investment in energy
                                                                             management is expected to
                                                         Y           Y       have a simple return on
                                                                             investment of 8 years.

                                                                                In addition, DOL’s new design
                                                                                and major renovations meet the
                                                                                Guiding Principles and the
                                                                                federal energy efficiency design
                                                                                requirements related to the
                                                                                American Society of Heating,
                                                                                Refrigerating and Air
                                                                                Conditioning Engineers
                                                                                (ASHRAE) 90.1-2007 standard.
NECPA      Other   Each agency shall implement                                  OMB has agencies assess
 Sec       Req.    guidelines (developed by the                                 energy consumption and report
8262e       17     Director of OMB to assess                                    it in the DOE/FEMP GHG
  (a)              accurate energy consumption                                  emissions report. Energy
                   for all buildings or facilities                              consumption for all EISA 2007
                   which the agency owns,                                       covered facilities are also
                   operates, manages or leases,          Y            Y         reported by DOE to OMB.
                   where the Government pays
                   utilities separate from the lease
                   and the Government operates
                   the leased space) no later than
                   120 days after their
                   establishment.
                                                 -49-


                                                                                Attachment 7

Department Compliance with Environmental Laws and Regulations for Electronic
Stewardship

Summary:
Six of six requirements addressed, six of six requirements met.

      Department Compliance with Environmental Laws and Regulations for Electronic Stewardship
  Source      Code          Requirement       Addressing    Meeting                     Notes
                                              Requirement Requirement
 EO 13423     Req.     Ensure that the                                    DOL had consistent green
 Sec 2.h.ii     1      agency enables the                                 scores in the SSPP for
                       Energy Star feature                                Electronic Stewardship and
                       on agency                                          Data Centers, which
                                                   Y            Y
                       computers and                                      addresses EPEAT and
                       monitors.                                          power management on
                                                                          agency computers and
                                                                          monitors.
 EO 13423     Req.     Ensure that the                                    The 2013 SSPP stated that
 Sec 2.h.iii    2      agency establishes                                 extending the life of
                       and implements                                     electronic equipment is
                       policies to extend the                             among the department’s
                       useful lifetime of                                 goals for Electronic
                       electronic                                         Stewardship.
                       equipment.                                         According to OASAM, DOL
                                                                          has implemented a program
                                                                          that takes electronic
                                                   Y            Y         equipment that is being
                                                                          replaced by an agency and
                                                                          provides the equipment, if it
                                                                          is still usable, to other DOL
                                                                          agencies that need
                                                                          equipment. Additionally,
                                                                          DOL has issued policies for
                                                                          acquiring computers with low
                                                                          standby power and the use
                                                                          of power management.
 EO 13423     Req.     Ensure that the                                    The 2013 SSPP showed
 Sec 2.h.iv     3      agency uses                                        100% compliance for DOL
                       environmentally                                    with end of life disposal of
                       sound practices with                               electronics.
                       respect to disposition      Y            Y
                       of agency electronic
                       equipment that has
                       reached the end of
                       its useful life.
                                                -50-

     Department Compliance with Environmental Laws and Regulations for Electronic Stewardship
 Source       Code         Requirement       Addressing    Meeting                   Notes
                                             Requirement Requirement
EO 13514      Req.    Establish and                                      As of 12/31/12, DOL had
Sec 2(i)(ii)   4      implement policies to                              “Enabled Power
                      enable power                                       Management” 100% agency-
                      management, duplex                                 wide.
                      printing, and other
                                                  Y            Y
                      energy-efficient or
                      environmentally
                      preferable features
                      on all eligible agency
                      electronic products.
EO 13514      Req.    Employ                                             The 2013 SSPP showed
Sec 2(i)(iii)  5      environmentally                                    100% compliance for DOL
                      sound practices on                                 with end of life disposal of
                                                  Y            Y
                      disposition of excess                              electronics.
                      or surplus electronic
                      products.
EO 13514      Req.    Implement best                                     DOL is implementing a
Sec 2(i)(iv)   6      management                                         Department-wide Data
                      practices for energy-                              Center Consolidation
                      efficient                                          program using the federal
                      management of               Y            Y         best practices that have
                      servers and federal                                been issued, which includes
                      data centers.                                      energy-efficient
                                                                         management of servers and
                                                                         federal data centers.
                                                      -51-


                                                                                     Attachment 8

   Department Compliance with Environmental Laws and Regulations for Regional
   and Local Planning

   Summary:
   Five of five requirements addressed. Three of five requirements met and two could not
   be determined.

         Department Compliance with Environmental Laws and Regulations for Regional and Local Planning
 Source       Code                  Requirement              Addressing    Meeting                Notes
                                                             Requirement Requirement
EO 13514       Req.   Participate in regional transportation                           The 2013 SSPP stated
Sec 2(f)(i)     1     planning and recognize existing                                  that Jobs Corps is
                      community transportation                                         incorporating this
                      infrastructure.                                      Could Not   participation in its
                                                                  Y
                                                                          Determine    regional and local
                                                                                       planning, but provided no
                                                                                       specifics or examples of
                                                                                       this activity.
EO 13514       Req.   Align federal policies to increase the                           DOL staff participates in
Sec 2(f)(ii)    2     effectiveness of local planning for                              Federal interagency
                      energy choices such as locally-                                  climate change planning
                      generated renewable energy.                                      workgroups that consider
                                                                                       local planning issues.
                                                                                       The 2013 SSPP noted
                                                                                       that Job Corps is aligning
                                                                                       its policies to increase
                                                                                       the effectiveness of local
                                                                                       energy planning by
                                                                                       developing renewable
                                                                                       energy generation on
                                                                                       Job Corps appropriate
                                                                  Y           Y
                                                                                       sites. Job Corps
                                                                                       produces renewable
                                                                                       energy with wind
                                                                                       turbines at Pine Ridge,
                                                                                       Angell, Cassadaga, and
                                                                                       Hawaii/Maui; solar
                                                                                       photovoltaic production
                                                                                       at Westover, Edison,
                                                                                       and Woodland; and solar
                                                                                       hot water at Miami.
                                                                                       Loring and Albuquerque
                                                                                       produce domestic hot
                                                                                       water using biomass.
EO 13514       Req.   Ensure that planning for new federal                             According to OASAM,
Sec 2(f)(iii)   3     facilities and leases consider sites                             DOL only has authority to
                      that are pedestrian friendly, near                               lease space directly for
                      existing employment centers, and                                 Job Corps. Job Corps
                                                                  Y           Y
                      accessible to public transport; and                              indicated that it considers
                      emphasize existing central cities and,                           these requirements.
                      in rural communities, existing or
                      planned town centers.
                                                      -52-

         Department Compliance with Environmental Laws and Regulations for Regional and Local Planning
 Source       Code                 Requirement              Addressing     Meeting                Notes
                                                            Requirement Requirement
EO 13514       Req.   Identify and analyze impacts from                                The 2013 SSPP noted
Sec 2(f)(iv)    4     energy usage and alternative energy                              that Job Corps is
                      sources in all environmental impact                              identifying and analyzing
                      statements and environmental                                     impacts related to this
                                                                 Y            Y
                      assessments for proposals covering                               requirement. The DOL
                      new or expanded federal facilities                               NEPA environmental
                      under NEPA, as amended.                                          impact assessments
                                                                                       include this requirement.
EO 13514       Req.   Coordinate with regional programs                                The 2013 SSPP noted
Sec 2(f)(v)     5     for federal, state, tribal, and local                            that Job Corps will
                      ecosystem watershed, and                                         update its policies to
                      environmental management.                                        ensure coordination with
                                                                                       regional programs for
                                                                                       federal, state, tribal and
                                                                                       local ecosystem
                                                                           Could Not
                                                                 Y                     watershed, and
                                                                          Determine
                                                                                       environmental impact.
                                                                                       However, no specifics
                                                                                       are provided on what
                                                                                       coordination is taking
                                                                                       place with these entities,
                                                                                       and the outcomes from
                                                                                       any such coordination.
                                                    -53-


                                                                                   Attachment 9

  Department Compliance with Environmental Laws and Regulations for
  Procurement and Contracts

  Summary:
  Two of two metrics addressed, two of two metrics met.
  Seven of eight other requirements addressed and one could not be determined.

        Department Compliance with Environmental Laws and Regulations for Procurement and Contracts
Source     Code                     Requirement                Addressing    Meeting            Notes
                                                               Requirement Requirement
  EO       Metric  Ensure that the agency, when acquiring                              DOL reported in its
 13423       1     an electronic product to meet its                                   2013 SSPP that at
  Sec              requirements, meets at least 95 percent                             least 95% of its
  2.h.i            of those requirements with an EPEAT-                                monitors and
                                                                    Y           Y
                   registered electronic product, unless there                         PC/laptops purchased
                   is no EPEAT standard for such a product.                            in FY 2012 were
                                                                                       EPEAT compliant
                                                                                       agency-wide.
  EO       Metric  Ensure that 95 percent of new contract                              The 2013 SSPP
 13514       2     actions including task and delivery orders,                         showed DOL had
Sec 2.h            for products and services . . . are energy                          100% of applicable
                   efficient (Energy Star or FEMP                                      contracts containing
                   designated), water-efficient, bio based,                            sustainable
                   environmentally preferable (e.g., EPEAT-         Y           Y      acquisition
                   certified), non-ozone depleting, contain                            requirements.
                   recycled content, or are non-toxic or less
                   toxic alternatives, where such products
                   and services meet agency performance
                   requirements.
 EISA      Other   Amends Section 801(a)(2) of NECPA –                                 DOL does not have
Sec 513    Req.    Not later than 18 months after the date of                          any indefinite
            N/A    enactment of this subparagraph, each                                delivery/ quantity
                   federal agency shall, to the maximum                                energy savings
                   extent practicable, modify any indefinite                           performance
                   delivery and indefinite quantity energy         N/A         N/A     contracts or indefinite
                   savings performance contracts, and other                            delivery/quantity
                   indefinite delivery and indefinite quantity                         contracts using
                   contracts using private financing, to                               private financing.
                   conform to the amendments made by
                   subtitle B of title V of EISA.
                                                     -54-

        Department Compliance with Environmental Laws and Regulations for Procurement and Contracts
Source     Code                    Requirement                  Addressing    Meeting             Notes
                                                                Requirement Requirement
 EISA      Other   No federal agency shall enter into a                                 OASAM is not aware
Sec 526    Req.    contract for procurement of an alternative                           of any existing
            N/A    or synthetic fuel, including a fuel produced                         contracts for the
                   from nonconventional petroleum sources,                              procurement of an
                   for any mobility-related use, other than for                         alternative or
                   research or testing, unless the contract                             synthetic fuel.
                   specifies that the lifecycle GHG emissions       N/A         N/A
                   associated with the production and
                   combustion of the fuel supplied under the
                   contract must, on an ongoing basis, be
                   less than or equal to such emissions from
                   the equivalent conventional fuel produced
                   from conventional petroleum sources.
  EO       Other   Require that in agency acquisitions of                               The 2013 SSPP
 13423     Req.    goods and services the: (i) use of                                   stated that DOL
Sec 2.d      1     sustainable environmental practices,                                 issued guidance to its
                   including acquisition of biobased,                                   contracting officers on
                   environmentally preferable, energy-                                  the requirements to
                   efficient (Energy Star or FEMP                                       acquire products and
                   designated products), water-efficient, and                           services complying
                   recycled-content products, and (ii) use of                           with environmental
                   paper of at least 30 percent post-                                   and sustainability
                   consumer fiber content.                           Y           Y      standards, including
                                                                                        bio-based, energy-
                                                                                        efficient products, and
                                                                                        products containing
                                                                                        recycled content. It
                                                                                        also stated that the
                                                                                        Department requires
                                                                                        the purchase of
                                                                                        “green” paper and
                                                                                        paper products.
  EO       Other   Ensure that contracts entered into after                             According to OASAM,
 13423     Req.    the date of this order for contractor                                DOL has Job Corps
Sec 3.e      2     operation of government-owned facilities                             contractor-operated
                   or vehicles require the contractor to                                facilities and
                   comply with the provisions of this order                             contractor-operated
                   with respect to such facilities or vehicles                          government fleets.
                                                                     Y           Y
                   to the same extent as the agency would                               The Job Corps
                   be required to comply if the agency                                  operations contracts
                   operated the facilities or vehicles.                                 require contractors to
                                                                                        comply with the
                                                                                        sustainability
                                                                                        requirements.
                                                     -55-

        Department Compliance with Environmental Laws and Regulations for Procurement and Contracts
Source     Code                     Requirement                 Addressing    Meeting            Notes
                                                                Requirement Requirement
  EO       Other   Ensure that agreements, permits, leases,                             According to OASAM,
 13423     Req.    licenses, or other legally-binding                                   new service
Sec 3.f      3     obligations between the agency and a                                 agreements and
                   tenant or concessionaire entered into                                leases include the
                   after the date of this order require, to the                         sustainability
                   extent the head of the agency determines                             requirements. In
                                                                     Y           Y
                   appropriate, that the tenant or                                      addition, the Job
                   concessionaire take actions relating to                              Corps operations
                   matters within the scope of the contract                             contracts require
                   that facilitate the agency’s compliance                              contractors to comply
                   with this order.                                                     with the sustainability
                                                                                        requirements.
EPACT      Other   Amends Subtitle F of the Solid Waste                                 According to OASAM,
Sec 108    Req.    Disposal Act - Not later than one year                               Job Corps guidance
             4     after the date of enactment of this section,                         requires a minimum
                   the Administrator and each agency head                               level of recycled
                   shall take such actions as are necessary                             content for materials,
                   to implement fully all procurement                                   including concrete
                   requirements and incentives in effect as                             and cement. DOL
                   of the date of enactment of this section                             contracts include FAR
                   (including guidelines under section 6002)                            52.223-17 by
                                                                     Y           Y
                   that provide for the use of cement and                               reference, which
                   concrete incorporating recovered mineral                             requires Contractors
                   component in cement or concrete                                      to make maximum
                   projects. An agency head shall give                                  use of products
                   priority to achieving greater use of                                 containing recovered
                   recovered mineral component in cement                                materials that are
                   or concrete projects for which recovered                             EPA-designated
                   mineral components historically have not                             items including
                   been used or have been used only                                     concrete and cement.
                   minimally.
EPACT      Other   Amends Title XXVI of the Energy Policy                               OASAM is not aware
  Sec      Req.    Act of 1992 – A federal agency or                                    of any electricity
 503(a)     N/A    department shall not pay more than the                               purchases in which
                   prevailing market price for an energy                                the majority of the
                   product or byproduct; or obtain less than                            interest in which is
                   prevailing market terms and conditions                               owned and controlled
                   when purchasing electricity or any other                             by one or more Indian
                   energy product or byproduct from an              N/A         N/A     tribes.
                   energy and resource production
                   enterprise, partnership, consortium,
                   corporation, or other type of business
                   organization the majority of the interest in
                   which is owned and controlled by one or
                   more Indian tribes.
                                                    -56-

        Department Compliance with Environmental Laws and Regulations for Procurement and Contracts
Source     Code                    Requirement                  Addressing    Meeting             Notes
                                                                Requirement Requirement
NECPA      Other   Each agency shall establish a program of                             According to OASAM,
  Sec      Req.    incentives for conserving, and otherwise                             agencies are
8256(a)      5     making more efficient use of, energy as a                            authorized to enter
   (1)             result of entering into contracts under                              into Energy
                   subchapter VII of this chapter.                                      Performance Savings
                                                                                        (ESPC) Contracts for
                                                                                        energy conservation
                                                                                        projects at agency
                                                                                        owned facilities. DOL
                                                                                        reviews its facilities
                                                                                        for potential ESPC
                                                                                        projects for an
                                                                                        adequate return on
                                                                                        investment and
                                                                                        potential risk
                                                                     Y           Y      attributes and reports
                                                                                        its progress on a
                                                                                        monthly basis to the
                                                                                        CEQ and OMB. In FY
                                                                                        2013, DOL pursued a
                                                                                        potential ESPC
                                                                                        project at the Francis
                                                                                        Perkins Building
                                                                                        pursuant to its
                                                                                        delegated authority
                                                                                        for the building but
                                                                                        the ESPC project was
                                                                                        not approved by GSA.
                                                                                        DOL has
                                                                                        implemented ESPC
                                                                                        projects at Job Corps.
NECPA      Other   The head of an agency shall incorporate                              The DOL SSPP noted
  Sec      Req.    into the specifications for all procurements                         that DOL has issued
 8259b       6     involving energy consuming products and                              guidance to its
 (b)(3)            systems, including guide specifications,                             contracting officers
                   project specifications, and construction,                            requiring the
                   renovation, and services contracts that                              acquisition of
                   include provision of energy consuming                                products and services
                   products and systems, and into the                                   complying with
                   factors for the evaluation of offers                                 environmental and
                                                                     Y           Y
                   received for the procurement, criteria for                           sustainability
                   energy efficiency that are consistent with                           standards, including,
                   the criteria used for rating Energy Star                             but not limited to
                   products and for rating FEMP designated                              Energy Star and
                   products.                                                            EPEAT products, thus
                                                                                        providing a minimum
                                                                                        criteria for rating
                                                                                        procurements.
                                                         -57-

        Department Compliance with Environmental Laws and Regulations for Procurement and Contracts
Source     Code                   Requirement                 Addressing    Meeting            Notes
                                                              Requirement Requirement
NECPA      Other   In the case of electric motors of 1 to 500                          No information
  Sec      Req.    horsepower, agencies shall select only                              provided.
8259b        7     premium efficient motors that meet a
                                                               Could Not   Could Not
 (d)(1)            standard designated by the Secretary of
                                                               Determine   Determine
                   Energy not later than 120 days after
                   August 8, 2005.

NECPA       Other   Each agency, in consultation with the                               According to OASAM,
  Sec       Req.    Federal Acquisition Regulatory Council,                             the Federal
 8262k        8     shall establish criteria for the                                    Acquisition
(a) & (b)           improvement of energy efficiency in                                 Regulatory Council
                    federal facilities operated by Federal                              issued Federal
                    Government contractors or                                           Acquisition
                    subcontractors. The criteria shall be used                          Regulations, Subpart
                    to encourage federal contractors, and                               23.2, Energy and
                                                                 Y            Y
                    their subcontractors, which manage and                              Water Efficiency and
                    operate federally-owned facilities, to                              Renewable Energy,
                    adopt and utilize energy conservation                               which DOL
                    measures designed to reduce energy                                  contracting staff are
                    costs in Government-owned and                                       required to add to
                    contractor-operated facilities and which                            DOL contracts when
                    are ultimately borne by the Federal                                 appropriate.
                    Government.
             -58-




PAGE INTENTIONALLY LEFT BLANK
                                                   -59-


                                                                                 Attachment 10

 Department Compliance with Environmental Laws and Regulations for Reporting

 Summary:
 27 of 29 requirements addressed and 1 could not be determined. 27 of 29 requirements
 met and 1 could not be determined.

              Department Compliance with Environmental Laws and Regulations for Reporting
Source   Code                Requirement             Addressing    Meeting                Notes
                                                     Requirement Requirement
EISA     Req.   Each federal agency subject to any                            According to OASAM, these
Sec       1     of the requirements of this title or                          requirements are addressed
527             the amendments made by this title                             in a large number of
                (i.e., Section 5xx) shall compile                             submissions in databases
                and submit to the Director of OMB                             and reports that are rolled up
                an annual Government efficiency                               and accessed by OMB/CEQ
                status report on: (1) compliance by                           and DOE. For example, the
                the agency with each of the                                   DOE/FEMP GHG inventory
                requirements of this title and the                            and EISA 432 reporting
                amendments made by this title; (2)                            submissions by DOL provide
                the status of the implementation by                           the cost savings for energy
                the agency of initiatives to improve      Y           Y       efficiency measures and the
                energy efficiency, reduce energy                              Department’s annual
                costs, and reduce emissions of                                Strategic Sustainability
                greenhouse gases; and (3)                                     Performance Plan provides
                savings to the taxpayers of the                               the status of the
                United States resulting from                                  implementation by the
                mandated improvements under                                   agency of initiatives to
                this title and the amendments                                 improve energy efficiency,
                made by this title.                                           reduce energy costs, and
                                                                              reduce emissions of
                                                                              greenhouse gases.
                                                    -60-

               Department Compliance with Environmental Laws and Regulations for Reporting
Source    Code                 Requirement            Addressing    Meeting                Notes
                                                      Requirement Requirement
  EO      Req.   Implement environmental                                       According to OASAM, DOL
13423      2     management systems (EMS) at all                               uses the SSPP as the
Sec 3.b          appropriate organizational levels to                          organizing structure for its
                 ensure: (i) use of EMS as the                                 Departmental EMS. The
                 primary management approach for                               SSPP includes the
                 addressing environmental aspects                              Secretary’s sustainability
                 of internal agency operations and                             policy statement and
                 activities, including environmental                           commitment to sustainability;
                 aspects of energy and                                         sets the Department’s goals,
                 transportation functions; (ii)                                objectives and targets; and
                 establishment of agency objectives                            outlines the strategies, plans,
                 and targets to ensure                                         and actions for achieving
                 implementation of this order; and                             goals and targets. Specific
                 (iii) collection, analysis, and                               procedures and work
                 reporting of information to measure                           instructions are issued, as
                                                           Y           Y
                 performance in the implementation                             needed, to implement the
                 of this order.                                                plans. In addition, as noted
                                                                               in the 2013 SSPP, Job
                                                                               Corps utilizes an agency-
                                                                               specific EMS to “coordinate
                                                                               dissemination of the Job
                                                                               Corps elements of the
                                                                               Sustainability Plan to all Job
                                                                               Corps Centers.” Monitoring
                                                                               and reporting on
                                                                               achievement of SSPP goals
                                                                               are provided semi-annually
                                                                               via OMB’s Green Scorecard
                                                                               and annually when the SSPP
                                                                               is updated.
                                                   -61-

               Department Compliance with Environmental Laws and Regulations for Reporting
Source    Code                Requirement             Addressing    Meeting                 Notes
                                                      Requirement Requirement
  EO      Req.   Establish programs for: (i)                                   According to OASAM, DOL
13423      3     environmental management                                      provides training on
Sec 3.c          training; (ii) environmental                                  sustainability requirements
                 compliance review and audit; and                              as needed to meet the goals
                 (iii) leadership awards to recognize                          set by the Department.
                 outstanding environmental,                                    Agency sustainability
                 energy, or transportation                                     requirements compliance
                 management performance in the                                 reviews are conducted at
                 agency.                                                       least semi-annually in
                                                                               anticipation of the OMB
                                                                               Scorecard and SSPP
                                                                               reporting.

                                                                                DOL issues a “Greening of
                                                                                The Workplace Award,” in
                                                                                recognition of individuals
                                                                                who have made significant
                                                                                contributions in the
                                                                                conservation and efficient
                                                          Y            Y
                                                                                use of energy, fuel, and
                                                                                water; and/or the use of
                                                                                sustainable energy sources.

                                                                                Job Corps campuses that
                                                                                meet DOL sustainability
                                                                                requirements and the
                                                                                Guiding Principles are
                                                                                designated as an
                                                                                “Environmental Center of
                                                                                Excellence.” The Laredo Job
                                                                                Corps Center was awarded
                                                                                the “Community Green
                                                                                Award,” established to
                                                                                recognize specific
                                                                                advancements in industry,
                                                                                building, media,
                                                                                organizations, and public
                                                                                policy.
                                                      -62-

                Department Compliance with Environmental Laws and Regulations for Reporting
Source     Code              Requirement                 Addressing    Meeting                Notes
                                                         Requirement Requirement
  EO       Req.   Within 30 days of this order: (i)                              The Deputy Assistant
13423       4     designate a senior civilian officer of                         Secretary for Administration
Sec 3.d           the United States, compensated                                 and Management was
                  annually in an amount at or above                              named the DOL SSO in
                  the amount payable at level IV of                              November 2009. The SSO
                  the Executive Schedule, to be                                  performs all of the duties
                  responsible for implementation of                              required by the relevant EOs
                  this order within the agency; (ii)                             and statutes including, but
                  report such designation to the                                 not limited to, submitting the
                  Director of OMB and the Chairman                               SSPP annually and Green
                  of the CEQ; and (iii) assign the            Y           Y      Scorecards semi-annually to
                  designated official the authority                              OMB and CEQ.
                  and duty to (A) monitor and report
                  to the head of the agency on
                  agency activities to carry out
                  subsections (a) and (b) of this
                  section, and (B) perform such
                  other duties relating to the
                  implementation of this order within
                  the agency as the head of the
                  agency deems appropriate.
  EO       Req.   Provide reports on agency                                      DOL submits the SSPP
13423       5     implementation of this order to the                            annually and Green
Sec 3.g           Chairman of the Council on such                                Scorecards semi-annually to
                                                              Y           Y
                  schedule and in such format as the                             OMB and CEQ.
                  Chairman of the Council may
                  require.
 EO        Req.   Ensure formal environmental                                    According to OASAM, DOL
13514       6     management systems are                                         uses its SSPP as the
 Sec              appropriately implemented and                                  organizing structure for its
2(j)(ii)          maintained to achieve the                                      Departmental EMS. In
                  performance necessary to meet                                  addition, as noted in the
                  the goals of EO 13514.                                         2013 SSPP, Job Corps
                                                                                 utilizes an agency-specific
                                                                                 EMS to “coordinate
                                                                                 dissemination of the Job
                                                                                 Corps elements of the
                                                              Y           Y      Sustainability Plan to all Job
                                                                                 Corps Centers.” Monitoring
                                                                                 and reporting on
                                                                                 achievement of SSPP goals
                                                                                 are provided semi-annually
                                                                                 via the OMB Scorecard and
                                                                                 annually when the SSPP is
                                                                                 updated. As a result, DOL is
                                                                                 showing annual progress on
                                                                                 meeting its sustainability
                                                                                 goals.
                                                   -63-

              Department Compliance with Environmental Laws and Regulations for Reporting
Source   Code                Requirement              Addressing    Meeting                Notes
                                                      Requirement Requirement
 EO      Req.   Designate a senior management                                 As indicated in the SSPP,
13514      7    official (within 30 days) to serve as                         the DOL SSO is the
 Sec            Senior Sustainability Officer                                 Deputy Assistant Secretary
 7(a)           accountable for agency                                        for Administration and
                conformance, and report                                       Management. The SSO
                designation to the CEQ Chair and                              performs all of the duties
                                                           Y           Y
                OMB Director.                                                 required by the relevant EOs
                                                                              and statutes including, but
                                                                              not limited to, submitting the
                                                                              SSPP annually and Green
                                                                              Scorecards semi-annually to
                                                                              OMB and CEQ.
 EO      Req.   Develop, implement, and annually                              The 2013 SSPP template is
13514      8    update an integrated Strategic                                issued annually by
Sec 8           Sustainability Performance Plan                               OMB/CEQ and the
                that will prioritize agency actions                           Department’s Plan is
                based on lifecycle return on                                  developed, implemented and
                investment.                                                   annually updated so as to
                                                                              prioritize agency actions
                                                                              based on lifecycle return on
                                                                              investment. For example,
                                                                              energy efficiency measure
                                                           Y           Y      identified in the EISA Sec.
                                                                              432 audits are implemented
                                                                              by way of the SSPP, and
                                                                              cost savings are reported in
                                                                              the DOE/FEMP GHG
                                                                              inventory. As calculated in
                                                                              the DOE/FEMP GHG
                                                                              inventory for FY 2013, DOL’s
                                                                              $1.6M investment in energy
                                                                              management is expected
                                                                              save $200,000 annually.
 EO      Req.   Each agency plan shall include a                              The 2013 SSPP included a
13514      9    policy statement committing the                               policy statement committing
 Sec            agency to compliance with                                     the agency to compliance
                                                           Y           Y
 8(a)           environmental and energy                                      with environmental and
                statutes, regulations, and EOs.                               energy statutes, regulations,
                                                                              and EOs.
 EO      Req.   Each agency plan shall achieve                                The 2013 SSPP addressed
13514     10    the sustainability goals and                                  sustainability goals and
 Sec            targets, including GHG reduction           Y           Y      targets, including GHG
 8(b)           targets, established under section                            reduction targets.
                2 of this order.
 EO      Req.   Each agency plan shall be                                     DOL’s strategic planning and
13514     11    integrated into the agency’s                                  budget documents included
 Sec            strategic planning and budget                                 supporting narratives on
 8(c)           process, including the agency’s                               integrating energy,
                                                           Y           Y
                strategic plan under section 3 of                             environmental, and
                the Government Performance and                                sustainability measures from
                Results Act of 1993, as amended                               the SSPP.
                (5 U.S.C. 306).
                                                     -64-

                Department Compliance with Environmental Laws and Regulations for Reporting
Source     Code               Requirement             Addressing    Meeting                  Notes
                                                      Requirement Requirement
 EO        Req.   Each agency plan shall identify                               The 2013 SSPP represented
13514       12    agency activities, policies, plans,                           a fundamental change in
 Sec              procedures, and practices that are                            how the department
 8(d)             relevant to the agency’s                                      identified agency activities,
                  implementation of this order, and                             policies, plans, procedures,
                  where necessary, provide for                                  and practices that are
                  development and implementation                                relevant to the agency’s
                  of new or revised policies, plans,                            implementation of EO 13514,
                  procedures, and practices.                                    and provided for
                                                                                development and
                                                                                implementation of new or
                                                                                revised policies, plans,
                                                           Y           Y
                                                                                procedures, and practices.
                                                                                In the Performance Review
                                                                                of the SSPP, and
                                                                                subsequently in multiple
                                                                                tables, these plans,
                                                                                procedures, and practices
                                                                                were provided for in multiple
                                                                                strategic areas, including
                                                                                specific targets and metrics
                                                                                to measure the strategies,
                                                                                along with relevant
                                                                                milestones.
 EO        Req.   Each agency plan shall identify                               The 2013 SSPP provided
13514       13    specific agency goals, a schedule,                            specific agency goals, a
 Sec              milestones, and approaches for                                schedule, milestones, and
 8(e)             achieving results, and quantifiable                           approaches for achieving
                                                           Y           Y
                  metrics for agency implementation                             results, Additionally,
                  of this order.                                                quantifiable metrics for
                                                                                agency implementation of
                                                                                EO 13514 were identified.
  EO       Req.   Each agency plan shall take into                              According to OASAM, when
 13514      14    consideration environmental                                   DOL develops its annual
Sec 8(f)          measures as well as economic and                              SSPP, it considers
                  social benefits and costs in                                  environmental measures, as
                  evaluating projects and activities                            well as economic and social
                  based on lifecycle return on                                  benefits and costs, in
                  investment.                                                   evaluating projects and
                                                                                activities based on lifecycle
                                                           Y           Y
                                                                                return on investment. The
                                                                                lifecycle return on investment
                                                                                for energy and water
                                                                                efficiency projects is
                                                                                performed under the EISA
                                                                                Sec. 432 audit process and
                                                                                improvement actions are
                                                                                included in the SSPP.
                                                     -65-

                Department Compliance with Environmental Laws and Regulations for Reporting
Source     Code               Requirement              Addressing    Meeting                 Notes
                                                       Requirement Requirement
 EO        Req.   Each agency plan shall outline                                The 2013 SSPP is publicly
13514       15    planned actions to provide                                    available at
 Sec              information about agency progress                             http://www.dol.gov/open/sust
 8(g)             and performance with respect to           Y           Y       ainability/.
                  achieving the goals of this order on
                  a publicly available Federal
                  website.
 EO        Req.   Each agency plan shall incorporate                            The 2013 SSPP
13514       16    actions for achieving progress on                             incorporated specific actions
 Sec              metrics identified by the OMB                                 for achieving progress on
                                                            Y           Y
 8(h)             Director and the CEQ Chair.                                   metrics identified by the
                                                                                OMB Director and CEQ
                                                                                Chair.
  EO       Req.   Each agency plan shall evaluate                               The 2013 SSPP identified
13514       17    agency climate-change risks and                               agency climate-change risks
Sec 8(i)          vulnerabilities to manage the                                 and vulnerabilities, and
                  effects of climate change on the                              advanced strategies for
                  agency’s operations and mission in                            incorporating climate change
                  both the short and long term.                                 into the agency’s operations
                                                            Y           Y
                                                                                and admissions.

                                                                                  Additionally, DOL issued its
                                                                                  2012 Climate Adaption Plan
                                                                                  as an Appendix to the 2012
                                                                                  SSPP.
                                                     -66-

                Department Compliance with Environmental Laws and Regulations for Reporting
Source     Code               Requirement            Addressing    Meeting                    Notes
                                                     Requirement Requirement
  EO       Req.   Each agency plan shall identify in                            According to OASAM, DOL
13514       18    annual updates opportunities for                              uses the CEQ/OMB template
Sec 8(j)          improvement and evaluation of                                 and instructions for SSPP
                  past performance in order to                                  reporting and the FY 2012
                  extend or expand projects that                                and FY 2013 templates did
                  have net lifecycle benefits, and                              not include a section
                  reassess or discontinue under-                                specifically for evaluation
                  performing projects                                           and opportunities for
                                                                                improvement. However, EO
                                                                                13514 still required DOL to
                                                                                identify in its annual updates
                                                                                opportunities for
                                                                                improvement and evaluation
                                                                                of past performance in order
                                                                                to extend or expand projects
                                                          N           N
                                                                                that have net lifecycle
                                                                                benefits, and reassess or
                                                                                discontinue under-
                                                                                performing projects.

                                                                                   In our review of the 2013
                                                                                   SSPP, we did not find any
                                                                                   instances where DOL
                                                                                   identified opportunities for
                                                                                   improvement or evaluated
                                                                                   past performance in order to
                                                                                   extend/expand projects with
                                                                                   net lifecycle benefits, or
                                                                                   reassess/discontinue under-
                                                                                   performing projects.
                                                     -67-

              Department Compliance with Environmental Laws and Regulations for Reporting
Source   Code              Requirement                  Addressing    Meeting                 Notes
                                                        Requirement Requirement
EPACT    Req.   Amends Section 305(a) of the                                    According to OASAM,
 Sec      19    Energy Conservation and                                         compliance with energy and
 109            Production Act (42 U.S.C. 6834(a))                              GHG reduction reporting
                – In the budget request of the                                  requirements has been
                federal agency for each FY and                                  consolidated by the DOE
                each report submitted by the                                    under their Federal Facility
                federal agency under section                                    Consolidated Annual
                548(a) of the NECPA (42 U.S.C.                                  Reporting Requirements.
                8258(a)), the head of each federal                              The DOE/FEMP GHG
                agency shall include: (i) a list of all                         inventory and energy
                new Federal buildings owned,                                    management report
                operated, or controlled by the                                  submitted annually by DOL
                Federal agency; and (ii) a                                      to DOE and OMB describes
                statement specifying whether the                                energy management
                Federal buildings meet or exceed         Could Not   Could Not  activities in Federal facilities
                the revised standards established        Determine   Determine  and operations and progress
                under this paragraph.                                           in implementing the
                                                                                requirements of NECPA,
                                                                                EPACT ’05, EISA, E.O.
                                                                                13423 and E.O 13514.

                                                                                    However, OASAM did not
                                                                                    provide us a copy of any
                                                                                    report that included the
                                                                                    required information. Based
                                                                                    on the information provided
                                                                                    by OASAM, we could not
                                                                                    determine if DOL is reporting
                                                                                    in accordance with this
                                                                                    specific requirement.
                                                    -68-

               Department Compliance with Environmental Laws and Regulations for Reporting
Source    Code                Requirement               Addressing    Meeting                Notes
                                                        Requirement Requirement
EPACT     Req.   Amends Section 9007 of the Solid                               DOL complied with this
 Sec       20    Waste Disposal Act – Not later                                 requirement via an August
 1528            than 12 months after the date of                               10, 2006 memorandum. In
                 enactment of the Underground                                   addition, Job Corps tracks
                 Storage Tank Compliance Act,                                   the size, contents, age, leak
                 each federal agency that owns or                               detection, corrosion
                 operates one or more                                           protection, and overfill
                 underground storage tanks, or                                  prevention of underground
                 that manages land on which one or                              storage tanks in an in-house
                 more underground storage tanks                                 database. Job Corps also
                 are located, shall submit to the                               tracks whether or not a tank
                 Administrator, the Committee on                                is federally regulated.
                 Energy and Commerce of the                                     Underground storage tanks
                 United States House of                                         are also evaluated every
                 Representatives, and the                                       three years by a facility
                 Committee on the Environment                                   survey team.
                 and Public Works of the Senate a
                 compliance strategy report that:
                 (A) lists the location and owner of
                 each underground storage tank
                 described in this paragraph; (B)
                 lists all tanks that are not in
                                                             Y           Y
                 compliance with this subtitle that
                 are owned or operated by the
                 Federal agency; (C) specifies the
                 date of the last inspection by a
                 State or Federal inspector of
                 each underground storage tank
                 owned or operated by the agency;
                 (D) lists each violation of this
                 subtitle respecting any
                 underground storage tank owned
                 or operated by the agency; (E)
                 describes the operator training that
                 has been provided to the operator
                 and other persons having primary
                 daily on-site management
                 responsibility for the operation and
                 maintenance of underground
                 storage tanks owned or operated
                 by the agency; and (F) describes
                 the actions that have been and will
                 be taken to ensure compliance for
                 each underground storage tank not
                 in compliance with this subtitle.
NECPA     Req.   Each Federal agency shall                                      The CTS database showed
  Sec      21    designate an energy manager                                    that, as of March 11, 2014,
8253(f)          responsible for implementing this                              there was a designated
  (2)            subsection and reducing energy                                 energy manager at 100% of
                                                             Y           Y
(A & B)          use at each covered facility                                   DOL’s “covered facilities.”
                 (federal facilities that constitute at
                 least 75 percent of facility energy
                 use at each agency).
                                                    -69-

               Department Compliance with Environmental Laws and Regulations for Reporting
Source    Code                 Requirement            Addressing    Meeting                 Notes
                                                      Requirement Requirement
NECPA     Req.   Effective beginning on the date                               The CTS database showed
  Sec      22    that is 180 days after December                               that, as of March 11, 2014,
8253(f)          19, 2007 and annually thereafter,                             DOL’s covered facilities were
  (3)            energy managers shall complete,                               100% evaluated.
(A & B)          for each calendar year, a
                 comprehensive energy and water
                 evaluation for approximately 25
                 percent of the covered facilities of
                 each agency in a manner that
                 ensures that an evaluation of each        Y           Y
                 such facility is completed at least
                 once every 4 years. As part of the
                 evaluation, the energy manager
                 shall identify and assess re-
                 commissioning measures (or, if the
                 facility has never been
                 commissioned, retro-
                 commissioning measures) for each
                 such facility.
NECPA     Req.   For each measure implemented                                  All new DOL buildings and
 Sec       23    under paragraph (4), each energy                              major renovations meet the
8253(f)          manager shall ensure that (A)                                 Guiding Principles which
  (5)            equipment, including building and                             require building and
                 equipment controls, is fully                                  equipment controls to be
                 commissioned at acceptance to be                              fully commissioned at design
                 operating at design specifications;                           specifications. Facilities have
                 (B) a plan for appropriate                                    equipment preventative
                 operations, maintenance, and                                  maintenance programs in
                 repair of the equipment is in place                           place and equipment
                 at acceptance and is followed; (C)        Y           Y       performance is periodically
                 equipment and system                                          checked to maintain
                 performance is measured during                                equipment and ensure
                 its entire life to ensure proper                              proper operation. Energy
                 operations, maintenance, and                                  and water savings are
                 repair; and (D) energy and water                              measured or estimated with
                 savings are measured and verified.                            DOE assistance and
                                                                               reported to DOE in the CTS
                                                                               database. DOL and DOE
                                                                               review the reporting to verify
                                                                               estimated savings.
NECPA     Req.   For each covered facility, the                                DOL utilizes the web-based
  Sec      24    energy manager shall use a web-                               CTS database to track
8253(f)          based tracking system (developed                              compliance with the given
 (7)(A)          and deployed by the Secretary of                              requirements.
                 Energy) to certify compliance with
                 the requirements for: (i) energy
                                                           Y           Y
                 and water evaluations under
                 paragraph (3); (ii) implementation
                 of identified energy and water
                 measures under paragraph (4);
                 and (iii) follow-up on implemented
                 measures under paragraph (5).
                                                     -70-

                Department Compliance with Environmental Laws and Regulations for Reporting
Source     Code               Requirement              Addressing    Meeting                  Notes
                                                       Requirement Requirement
NECPA      Other The energy manager shall enter                                 The CTS database showed
  Sec      Req.   energy use data for each metered                              that, as of March 14, 2014,
8253(f)     25    building that is (or is a part of) a                          DOL benchmarked 29 of its
 (8)(A)           covered facility into a building                              1,229 buildings at covered
                  energy use benchmarking system,                               facilities. According to
                  such as the Energy Star Portfolio         Y           Y       OASAM, there are only 29
                  Manager.                                                      buildings at its covered
                                                                                facilities that are separately
                                                                                metered for electricity and all
                                                                                29 have been entered into
                                                                                EPA’s Portfolio Manager.
NECPA      Req.   Each energy manager shall post                                DOL utilizes the web-based
  Sec       26    the information entered into, or                              CTS database to track
8253(f)           generated by, a benchmarking                                  compliance with the given
 (8)(C)           system under this subsection, on                              requirements.
                  the web-based tracking system
                  under paragraph (7)(B). The
                                                            Y           Y
                  energy manager shall update such
                  information each year, and shall
                  include in such reporting previous
                  years' information to allow
                  changes in building performance to
                  be tracked over time.
NECPA      Req.   Not later than 180 days after                                 Job Corps large capital
   Sec      27    December 19, 2007, each federal                               energy investments must, by
  8253            agency shall develop a process for                            contract, require energy
 (f2)(2)          reviewing each decision made on                               efficient designs, systems,
(A & B)           a large capital energy investment                             equipment, controls and
                                                            Y           Y
                  described in paragraph (1) to                                 cost-effectiveness. Decisions
                  ensure that the requirements of                               are reviewed at multiple
                  this subsection are met; and                                  levels to ensure that
                  reported to the Director of OMB on                            applicable requirements are
                  the process established.                                      met.
                                                   -71-

               Department Compliance with Environmental Laws and Regulations for Reporting
Source    Code                 Requirement            Addressing    Meeting                Notes
                                                      Requirement Requirement
NECPA     Req.   Each agency shall transmit a                                  According to OASAM,
  Sec      28    report to the Secretary of Energy,                            compliance with energy and
8258(a)          at times specified by the Secretary                           GHG reduction reporting
                 but at least annually, with complete                          requirements has been
                 information on its activities under                           consolidated by DOE under
                 this part, including information on:                          their Federal Facility
                 (1) the agency's progress in                                  Consolidated Annual
                 achieving the goals established by                            Reporting Requirements.
                 section 8253 of this title; and (2)
                 the procedures being used by the                              The DOE/FEMP GHG
                 agency to implement an incentive                              inventory and energy
                 program for conserving, and                                   management report
                 otherwise making more efficient                               submitted annually by DOL
                 use of, energy as a result of                                 to DOE and OMB includes
                 entering into contracts under                                 information on DOL’s
                                                           Y           Y
                 subchapter VII of this chapter                                progress in achieving the
                 (pursuant to section 8256(a)(2) of                            goals of NECPA Section
                 this title), the number of contracts                          8253 as well as information
                 entered into by such agency under                             on DOL’s use of
                 subchapter VII of this chapter, the                           performance contracts.
                 energy and cost savings that have
                 resulted from such contracts and
                 any termination penalty exposure,
                 the use of such cost savings in
                 utility incentive programs (under
                 section 8256(c) of this title), and
                 any problem encountered in
                 entering into such contracts and
                 otherwise implementing section
                 8256 of this title.
          Req.   Each facility energy manager shall                            According to OASAM, the
NECPA      29    maintain energy consumption and                               CTS database and
 Sec             energy cost records for review by                             DOE/FEMP GHG inventory
8262e            the Inspector General, the                                    reports through the Federal
  (a)            Congress, and the general public.                             Facility Consolidated Annual
                                                                               Reporting Requirements
                                                                               include reporting of energy
                                                                               consumption and energy
                                                                               cost records that can be
                                                           Y           Y       reviewed by the Inspector
                                                                               General, the Congress, and
                                                                               the general public.

                                                                                 Additionally, DOL facility
                                                                                 managers maintain records
                                                                                 of monthly energy
                                                                                 consumption and cost
                                                                                 records for the facility for
                                                                                 which they are responsible.
             -72-




PAGE INTENTIONALLY LEFT BLANK
                                                        -73­


                                                                                                Attachment 11

Agency Response to Draft Report


      u.s . Departme nt of Llbor              0ftIa0 of the        a.c-,.
                                                               and.........­
                                                              ~_



                                              IorAdllOln~
                                              WMllIoIfton, D.C. 20210




                 SEP 19 2014


         MEMORANDUM FOR~W1



         FROM:



         SUBJECT:                Department of Labor Oimate Change Review

         This responds to your draft memoJ1lndum (attached), received by !be Office of Administration
         and Management on September 3, 2014. We appreciate the Inspector Gencn1's recognition that
         the Department of Labor ("DOL" or " Department") ~ in substantial compliance with Federal
         environmental and energy performance requirement.! which Wlderlie Federal requirements for
         agencies to address climate change. a review requested by the United States Congress Bicameral
         Task Force on Climate Change.

         As IICknowledged in your September 3 draft memorandum. the analysis and recommendations
             based ona review conducted between April 2013 and March 2014 under the Qualily
         IlJ'e
         Standards for Inspection and Evaluation issued January 2012 by the CoUDCil o( the Inspecton
         General 00 Integrity and Efficiency (Standards). We appreci81e that you also IICknowiedge the
         cooteJ(t of the Department's compliance. including that DOL is responsible for reponing mera.Y
         and sustainabilily perfOnnaIIIX (or the Department of Labor, including Job CoJps Centcn (which
         comprise more than 2,400 aging buildings located on 125 Centers throughout the CO\D\try), the
         Frances PerlcinlI Building in Washington, DC, and more than 4,000 leased vehicles. Further, we
         appreciate the acknowledgement that the Department's environmental policy is reviewed and
         reissued annually by the Secretary of Labor in the DOL Strategic Sustainability Perfonnance
         Plan (SSPP) pursuant to detailed template instructions from the Office of Management and
         Budget (OMB) and Council 00 Environmental Qualily (CEQ) and updates the SSPP annually as
         dictated by OMS and CEQ to show the top priorily initiatives and actions selected for improving
         sustainabilily during the succeeding fiscal year. We also appreciate the DIG spendiog
         considerable time with us delving into the complicated web o( decades of myriad environmental
         and energy statutes, regulations and executive ordm to detenniJle relevant requirements. In
         addition. we aeknowledge DIG's significant efforts to Wlderstand the methods of reporting
         energy and eovironmental data to the public through the appropriate Fedc1al agencies including
         but not limited to. the Department o(Energy, Environmental Protec:ti.on Agency and Geoeral
         Services Administration.

         Except as noted below, we accept the analysis and recommendations in your September 3 draft
         memorandum. There are, however, a few important poinl3 of clarification that need to be made.
                                              -74­




OIG notes that DOL complies with the CEQ/OMB requirement to use their template and
instructions to complete the SSPP but fmds 00 instances "where DOL identified opportunities for
improvement or evaluated past perfonnancc in order to extend/expand projects with net lifecyd e
benefits, or reassessldiscootinue under-performing projects" on the 2013 SSPP. The OIG
eounted this 8J lIOD-COmpliant for both addressing and meeting the requirement We oote that the
OMBICEQ SSPP template for 2013 asked Fedenl agencies to descn}c in the executive
summary; "SUCCESSES for programs and initiatives that are ahead of schedule and achieving
goals in an expedient or innovative manner, CHALLENGES that preclude or impair goal
achievement, LESSONS LEARNED about process anellor plans used to pursue goals, and
PLANNED AGnONS to maintain or improve progress. address setbacks, or correct deficiencies
(This section is forwanl looking and should closely align with the strategies described in the goal
strategies tables I through 9.)" DOL notes that we complied with this requirement in the
executive sllllU1W)' 8J Rlquested by OMB/CEQ.

010 states that it could not assess DOL's compliance with "pollution and waste reduction" waste
diversion metria; however, these metries are oot in effect until the end ofFY 2015. This flltt is
relevant because on page 35 of its draft report the OIG says that it cannot determine if DOL is
meeting Metms I and 2 for waste diversion and this determination is OOIlIlted against DOL in
the OlG's compliance scoring sections as not meeting the requirement.

Finally, DOL notes that OIG does not mention E,,~tive Order 13653, Preparing the United
States for the Impacts of Climate Change (November I, 2013) and iDdicates that the
requirements identified _     from its review and "discussions with Departmental officials," In
conversations with OIG, the issuance of the new climate change £.0. was communicated to the
OIG.

Thank you again for your memorandum and the very positive assessment of the Department's
work on and compliance with the important energy and environmental laws, regulations,
executive orders lIddressing climate change.

Attachment

ce:    T. Michael Kerr, Assistant Secretary for Administration and Management
       Charlotte Hayes, Deputy Assistant Secretary for Policy
